3   October 1, 2012 – March 31, 2013
               TIGTA SEMIANNUAL REPORT TO CONGRESS




October    3                                         October 1, 2012 – March 31, 201
1, 2012
       –
 March
     31,
   2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS



        Inspector General’s
       Message to Congress
I am pleased to submit this Semiannual Report to Congress,
highlighting the many accomplishments of the Treasury
Inspector General for Tax Administration (TIGTA) in
promoting its mission to provide oversight of the Internal
Revenue Service (IRS) and protect the integrity of Federal tax
administration. TIGTA’s achievements for the reporting
period of October 1, 2012 to March 31, 2013 are showcased
through the many noteworthy audits, investigations, and
inspections and evaluations summarized in this report.

Now more than ever, as our Nation wrestles with serious ongoing economic challenges,
our oversight role in ensuring efficient, effective and proper management of our National
Government’s source of funding and revenue is critical. We will continue to ensure that
the IRS diligently and efficiently performs its duty of collecting Federal tax revenue, while
at the same time administering the growing number of programs with which it is charged.
We at TIGTA are committed to ensuring that the IRS carries out its responsibilities to
America’s taxpayers as effectively and efficiently as possible and with the highest level of
quality, service, and integrity.

At the same time, TIGTA has reassessed its own budget and resources and is currently
making efforts to improve its cost efficiency as required by the sequester. TIGTA’s senior
executives and I have identified reductions in areas such as travel, training, contracts,
awards, supplies, and overtime, among others. Additionally, a hiring freeze has been
imposed. We are considering every effort to identify further cost savings and still achieve
organizational goals without exceeding our budget allocation.

During this reporting period, TIGTA’s combined audit and investigative efforts have
recovered, protected, and identified monetary benefits totaling $1.18 billion. Over the
past six months, our Office of Audit (OA) has completed 30 audits, and the Office of
Investigations (OI) has closed 1,555 investigations.

Our audit work has uncovered inefficient use of resources at the IRS concerning aircard
and BlackBerry® smartphone assignments, shortcomings in the IRS’s compliance with
the Improper Payments Elimination and Recovery Act, and imperfections in the way the
IRS refers and recognizes indications of fraud. In addition, we have determined that the
IRS could improve some of the systems it is developing to manage its implementation of
the Affordable Care Act. Meanwhile, TIGTA’s investigators have worked hard to
discourage bribery, to combat identity theft committed by IRS employees, and to sharpen
our own employees’ response to threats posed by potentially dangerous taxpayers.

                                                      October 1, 2012 – March 31, 2013      3
          TIGTA SEMIANNUAL REPORT TO CONGRESS


Congress’s passage of the American Taxpayer Relief Act of 2012 has permanently
allowed for greater information sharing between prison officials and the IRS, an important
weapon to help combat the growing problem of tax fraud committed by prisoners. The
need for greater scrutiny of tax returns filed by prisoners is an ongoing concern for
TIGTA, as is seen in this report, so Congress’s passage in February of this new law is a
promising development.

In the last tax filing season, OA discovered approximately 19 million late filers along with
many improper payments. TIGTA’s audit reports found fraud to be a prominent issue that
prevents the IRS from effectively collecting taxes. In addition, after examining IRS budget
testimonies and reports, TIGTA concluded that there is substantial waste at the IRS. At
no time in history have we been more committed to carrying out our important mission of
serving the American people by working to ensure the integrity of Federal tax
administration.




                                            Sincerely,



                                      J. Russell George
                                      Inspector General




4        October 1, 2012 – March 31, 2013
                             TIGTA SEMIANNUAL REPORT TO CONGRESS



                                           Table of Contents
Inspector General’s Message to Congress .................................................................                                  3

TIGTA’s Profile ..................................................................................................................         7
        Statutory Mandate ........................................................................................................         7
        Organizational Structure...............................................................................................            8
        Authorities ....................................................................................................................   8

TIGTA’s Highlights ...........................................................................................................             9

Promote the Economy, Efficiency, and Effectiveness of Tax Administration ..... 13
        Security for Taxpayer Data and Employees .................................................................                         13
        Tax Compliance Initiatives ...........................................................................................             15
        Implementing the Affordable Care Act and Other Tax Law Changes ............................                                        19
        Fraudulent Claims and Improper Payments .................................................................                          20
        Human Capital .............................................................................................................        22
        Achieving Program Efficiencies and Cost Savings .......................................................                            24

Protect the Integrity of Tax Administration ................................................................. 27
        The Performance Model ...............................................................................................              27
        Employee Integrity .......................................................................................................         27
        Employee and Infrastructure Security ...........................................................................                   29
        External Attempts to Corrupt Tax Administration ..........................................................                         31
        Identity Theft Initiative ..................................................................................................       33

Advancing Oversight of America’s Tax System......................................................... 37

TIGTA’s International Programs .................................................................................... 41

American Recovery and Reinvestment Act of 2009 .................................................. 43

An Organization That Values Its People ...................................................................... 47

Congressional Testimony ............................................................................................... 49

Audit Statistical Reports ................................................................................................. 53
        Reports with Questioned Costs .................................................................................. 53
        Reports with Recommendations that Funds be Put to Better Use ................................ 54
        Reports with Additional Quantifiable Impact on Tax Administration .............................. 55

Investigations Statistical Reports ................................................................................. 57
        Significant Investigative Achievements .........................................................................                   57
        Status of Closed Criminal Investigations ......................................................................                    58
        Criminal Dispositions ....................................................................................................         58
        Administrative Dispositions on Closed TIGTA Investigations ........................................                                58

                                                                                    October 1, 2012 – March 31, 2013                            5
             TIGTA SEMIANNUAL REPORT TO CONGRESS


Ap p e n d i c e s
Appendix I – Statistical Reports – Other...................................................................... 59
       Audit Reports With Significant Unimplemented Corrective Actions ............................... 59

Appendix II – Audit Products ......................................................................................... 67

Appendix III – TIGTA’s Statutory Reporting Requirements ..................................... 69

Appendix IV – Section 1203 Standards ........................................................................ 73

Appendix V – Implementing Section 989C of the Dodd-Frank Wall Street
    Reform and Consumer Protection Act ............................................................... 75

Appendix VI – Data Tables Provided by the Internal Revenue Service ................. 77
       Internal Revenue Service Memorandum ......................................................................        77
       Reports of Employee Misconduct, Summary by Disposition Groups ............................                        78
       Reports of Employee Misconduct, National Summary ..................................................               79
       Summary of Substantiated Internal Revenue Code § 1203 Allegations
           Recorded in Automated Labor and Employee Relations Tracking System………….                                       80

Glossary of Acronyms ..................................................................................................... 81




6            October 1, 2012 – March 31, 2013
                   TIGTA SEMIANNUAL REPORT TO CONGRESS



            TIGTA’s Profile


T        he Treasury Inspector General for
         Tax Administration (TIGTA)
         provides independent oversight of
         the Department of the Treasury’s
matters involving IRS activities, the IRS
Oversight Board, and the IRS Office of Chief
                                                          Statutory Mandate

                                                        Protect against external
                                                         attempts to corrupt or
                                                         threaten IRS employees.
Counsel. Although TIGTA is placed
                                                        Provide policy direction and
organizationally within the Department of the            conduct, supervise, and
Treasury and reports to the Secretary of the             coordinate audits and
Treasury and to Congress, it functions                   investigations related to IRS
independently from all other offices and                 programs and operations.
bureaus within the Department.                          Review existing and
                                                         proposed legislation and
TIGTA oversees all aspects of activity related           regulations related to IRS
to the Federal tax system as administered by             programs and operations,
the IRS. TIGTA protects the public’s                     and make recommendations
confidence in the tax system by identifying              concerning the impact of
and addressing the IRS’s management                      such legislation or
challenges and implementing the priorities of            regulations.
the Department of the Treasury.                         Promote the economy and
                                                         efficiency in the
TIGTA’s organizational structure is comprised            administration of tax laws.
of the Office of the Inspector General and six          Prevent and detect waste,
functional offices: the Office of                        fraud, and abuse in IRS
Investigations; the Office of Audit; the Office          programs and operations.
of Inspections and Evaluations; the Office of           Inform the Secretary of the
Mission Support; the Office of Information               Treasury and Congress of
Technology; and the Office of Chief Counsel.             problems and deficiencies
(See chart on page 8.)                                   identified and of the
                                                         progress made in resolving
                                                         them.
TIGTA provides audit, investigative, and
inspection and evaluation services that
promote economy, efficiency, and integrity in
the administration of the Internal Revenue
laws.




                                                  October 1, 2012 – March 31, 2013       7
                 TIGTA SEMIANNUAL REPORT TO CONGRESS



                           Organizational Structure

                                              Inspector General

                                               Principal Deputy
                                              Inspector General




                                           Deputy
    Deputy              Deputy            Inspector           Associate              Chief              Chief
   Inspector           Inspector         General for           Inspector          Information          Counsel
  General for         General for        Inspections          General for            Officer
Investigations           Audit               and                Mission
                                         Evaluations            Support




                                           Authorities
   TIGTA derives its authority from the Inspector General Act of 1978, as amended.1 TIGTA
   has access to tax returns and return information in the performance of its tax
   administration responsibilities. TIGTA must also report potential Federal criminal
   violations directly to the U.S. Attorney General. TIGTA and the Commissioner of the IRS
   have established policies and procedures delineating responsibilities to investigate
   potential criminal offenses under Internal Revenue laws. In addition, the Internal
   Revenue Service Restructuring and Reform Act of 1998 (RRA 98)2 amended the
   Inspector General Act of 1978 to give TIGTA the statutory authority to carry firearms,
   execute and serve search and arrest warrants, serve subpoenas and summonses, and
   make arrests as set forth in Internal Revenue Code (I.R.C.) § 7608(b)(2).




   1
    5 U.S.C. app. 3 (amended 2008).
   2
    Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
   16 U.S.C., and 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
   8         October 1, 2012 – March 31, 2013
                      TIGTA SEMIANNUAL REPORT TO CONGRESS



                               TIGTA’s Highlights
Examples of High-Profile Cases by the Office of
Investigations:
Alaska Couple Sentenced for Conspiracy to Murder Federal Officials

On January 7, 2013, in the District of Alaska, Lonnie and Karen Vernon (the Vernons)
were sentenced for conspiracy to kill a United States District Court Judge and an IRS
Revenue Officer while engaged in the performance of their official duties. Lonnie
Vernon’s sentence also included conspiracy to possess unregistered silencers and
destructive devices.3

Lonnie Vernon was sentenced to 310-months of imprisonment.4 Karen Vernon was
sentenced to a prison term of 144-months.5 They were also ordered to pay assessments
of $200 and $100, respectively.6 Upon release from prison, both of the Vernons will be
on supervised release for a term of five years.

According to court documents, the IRS recorded Federal tax liens against the Vernons in
2008, as a result of their failing to pay taxes to the IRS over the course of several years.
In 2009, the United States Government filed a civil tax case against the Vernons alleging
that they owed approximately $165,750 and seeking to foreclose its Federal tax liens
against real property belonging to the Vernons. The United States sought to reduce the
tax assessments to judgment, foreclose its liens, sell the property belonging to the
Vernons, and apply the proceeds toward their tax liabilities.7

In court documents, Lonnie Vernon admitted that he travelled with another person to
Anchorage, Alaska, where he sought to obtain a silencer and indicated that he was going
to kill an IRS employee.8 The Vernons admitted that they purchased and received a
pistol equipped with a silencer and two hand grenades, not knowing at the time that the
grenades were inert.9



3
  D. Alaska Judgment (Karen Vernon) filed Jan. 8, 2013; D. Alaska Judgment (Lonnie Vernon) filed Jan. 8,
2013; D. Alaska First Superseding Indict. filed Mar. 17, 2011; and D. Alaska Third Superseding Indict. filed
Jan. 20, 2012.
4
  D. Alaska Judgment (Lonnie Vernon) filed Jan. 8, 2013.
5
  D. Alaska Judgment (Karen Vernon) filed Jan. 8, 2013.
6
  D. Alaska Judgment (Karen Vernon) filed Jan. 8, 2013; D. Alaska Judgment (Lonnie Vernon) filed Jan. 8,
2013.
7
  D. Alaska Plea Agr. (Karen Vernon) filed Aug. 27, 2012; D. Alaska Plea Agr. (Lonnie Vernon) filed Aug.
27, 2012.
8
  D. Alaska Plea Agr. (Lonnie Vernon) filed Aug. 27, 2012.
9
  D. Alaska Plea Agr. (Karen Vernon) filed Aug. 27, 2012; D. Alaska Plea Agr. (Lonnie Vernon) filed Aug.
27, 2012.
                                                               October 1, 2012 – March 31, 2013            9
            TIGTA SEMIANNUAL REPORT TO CONGRESS


Vihn Q. Tran Sentenced for Bribery of a Public Official

Vihn Q. Tran, owner and operator of St. Vincent Seafood Co., Inc., a shrimp and seafood
distributor in Leeville, Louisiana,10 was sentenced for bribery of a public official.11

In August 2007, an IRS agent delivered an appointment letter to Tran to schedule an IRS
audit of Tran’s business. At the conclusion of the meeting, Tran offered the IRS agent
lunch; however, the agent declined. As the IRS agent was walking away, Tran told him,
“…I will take good care of you.” 12

In a subsequent meeting between Tran and the IRS agent, Tran told the IRS agent that
he would take care of him if the IRS agent took care of Tran. Tran then asked the IRS
agent to make sure he owed little or no taxes and to make the audit paperwork “clear.” 13
Tran offered $6,000 cash and other things of value to the IRS agent with the intent to
influence an IRS audit being conducted of his seafood distribution business.14 Tran made
an initial bribe payment of $500 cash and 75 pounds of jumbo shrimp valued at
approximately $400. Tran made additional cash payments to the agent totaling $5,500
during three meetings between June and August 2008.15

In April 2011, TIGTA Special Agents interviewed Tran concerning the bribery payments
he made to the IRS agent. Tran acknowledged he had made bribe payments over the
course of several meetings. Tran also admitted that he was aware that what he was
doing was against the law.16

Tran pled guilty to bribery of a public official on January 5, 2012.17 On March 7, 2013, in
the Eastern District of Louisiana, Tran was sentenced to three-years’ probation, to include
six-months home detention with electronic monitoring, and he was ordered to pay a $100
assessment for bribery of a public official.18




10
   E.D. La., Factual Basis filed Jan. 5, 2012.
11
   E.D. La., Judgment filed Mar. 7, 2013.
12
   E.D. La., Factual Basis filed Jan. 5, 2012.
13
   Id.
14
   E.D. La., Bill of Information filed Nov. 29, 2011.
15
   E.D. La., Factual Basis filed Jan. 5, 2012.
16
   Id.
17
   E.D. La., Plea letter filed Jan. 5, 2012.
18
   E.D. La., Judgment filed Mar. 7, 2013.
10         October 1, 2012 – March 31, 2013
                   TIGTA SEMIANNUAL REPORT TO CONGRESS


Examples of High-Profile Reports by the Office of
Audit:
Many Taxpayers Are Still Not Complying With Noncash Charitable Contribution
Reporting Requirements

Taxpayers can generally deduct on their Federal tax return noncash charitable
contributions made to qualifying organizations during the tax year. However, taxpayers
who do not comply with the noncash contributions reporting requirements could be
incorrectly reducing their tax liabilities and receiving tax refunds to which they are not
entitled. Overall, TIGTA estimated that more than 273,000 taxpayers claimed
approximately $3.8 billion in potentially erroneous noncash charitable contributions in Tax
Year (TY) 2010, which resulted in an estimated $1.1 billion reduction in taxes.

IRS controls are still not sufficient to ensure that taxpayers are complying with noncash
charitable-contribution reporting requirements. For example, statistical samples of TY
2010 tax returns that claimed more than $5,000 in noncash charitable contributions
showed that approximately 60 percent of the taxpayers in the samples did not comply
with the noncash charitable-contribution reporting requirements. These taxpayers
claimed noncash contributions totaling approximately $201.6 million.

In addition, the IRS is still not effectively identifying taxpayers who are not complying with
reporting requirements for donations of motor vehicles. For example, when TIGTA
compared individual tax returns processed as of December 31, 2011, with tax returns filed
by charities for the same period, it was discovered that approximately $77 million in
deductions claimed on Forms 1098-C, Contributions of Motor Vehicles, Boats, and
Airplanes, were not reported as received by charities on Form 1098-C. In addition, 1,708
taxpayers reported a total fair market value of their vehicles that exceeded sales
proceeds by a combined total of $2.2 million.

As a result, TIGTA recommended that the IRS:

      Expand procedures to identify tax returns claiming noncash charitable
       contributions that do not have a Form 8283, Noncash Charitable Contributions, or
       qualified appraisal attached when required;
      Develop processes to systemically verify the accuracy of noncash charitable
       contributions;
      Revise the Form 8283 and related instructions; and
      Develop procedures to match Forms 1098-C submitted with individual tax returns
       to those filed by charitable organizations.

IRS management agreed with most of the recommendations. Although the IRS did not
agree to develop procedures to match Forms 1098-C submitted with individual tax returns


                                                      October 1, 2012 – March 31, 2013      11
            TIGTA SEMIANNUAL REPORT TO CONGRESS


to those filed by charitable organizations, it agreed to capture information to match Forms
1098-C.
Reference No. 2013-40-009

Significant Delays Hindered Efforts to Provide Continuous Monitoring of Security
Settings on Computer Workstations

Effective continuous monitoring of computer workstations allows security issues to be
identified and mitigated promptly, reducing the likelihood of a security breach. When IRS
data and its network are not secure, taxpayer information becomes vulnerable to
unauthorized disclosure and theft. Furthermore, security breaches can cause network
disruptions and prevent the IRS from performing vital taxpayer services, such as
processing tax returns, issuing refunds, and answering taxpayer inquiries. In addition, the
IRS collects vast quantities of personal and financial information that can be targeted for
identity theft.

The Treasury Enhanced Security Initiatives project, which includes the continuous
monitoring tool for workstation security, will address several computer security
weaknesses. During the development process, the IRS appropriately acquired the
project’s multiple software components, and the project team completed key
documentation ensuring that critical issues were identified and addressed. However, the
Treasury Enhanced Security Initiatives project has experienced several delays, and the
project’s oversight board did not take required actions to manage the delays or the
associated costs. The IRS was originally scheduled to deploy the security tools in
December 2010, but now plans to complete the deployment in May 2013.

TIGTA recommended that the IRS:

        Review total actual life cycle costs for projects at least quarterly, and review
         variances between actual costs and the originally proposed estimated costs;
        Manage costs by considering the postponement of projects incurring long-term
         delays; and
        Escalate ongoing project delays to the higher level Security Services and Privacy
         Executive Steering Committee.

IRS management agreed with the recommendations and stated that it plans to take
corrective actions.
Reference No. 2013-20-016




12         October 1, 2012 – March 31, 2013
                   TIGTA SEMIANNUAL REPORT TO CONGRESS



       Promote the Economy, Efficiency, and
        Effectiveness of Tax Administration
      IGTA’s Office of Audit (OA) strives to promote the economy, efficiency, and

T     effectiveness of tax administration. TIGTA provides recommendations to improve
      IRS systems and operations and to ensure the fair and equitable treatment of
      taxpayers. TIGTA’s comprehensive and independent performance and financial
audits of IRS programs and operations primarily address statutorily mandated reviews
and high-risk challenges that the IRS faces.

The IRS’s implementation of TIGTA audit recommendations results in:

      Cost savings;
      Increased or protected revenue;
      Protection of taxpayers’ rights and entitlements; and
      More efficient use of resources.

Each year, TIGTA identifies and addresses the IRS’s major management and
performance challenges. OA places audit emphasis on statutory coverage required by
RRA 98 and other laws, as well as areas of concern to Congress, the Secretary of the
Treasury, the Commissioner of the IRS, and other key stakeholders.


       Audit Emphasis Areas for October 2012 Through March 2013

          Security for Taxpayer Data and Employees
          Tax Compliance Initiatives
          Implementing the Affordable Care Act and Other Tax Law Changes
          Fraudulent Claims and Improper Payments
          Human Capital
          Achieving Program Efficiencies and Cost Savings



The following summaries highlight significant audits completed in each area of emphasis
during this six-month reporting period:

Security for Taxpayer Data and Employees

The IRS faces the daunting task of securing its computer systems against the growing
threat of cyberattacks. Effective information systems security becomes essential to
ensure that data are protected against inadvertent or deliberate misuse, improper

                                                     October 1, 2012 – March 31, 2013   13
            TIGTA SEMIANNUAL REPORT TO CONGRESS


disclosure, or destruction, and that computer operations supporting tax administration are
secured against disruption or compromise.

Improvements Are Needed to Ensure the Effectiveness of the Privacy Impact
Assessment Process

The Privacy Impact Assessment (PIA) process examines the risks and ramifications of
using information technology to collect, maintain, and disseminate information in
identifiable form about members of the public and agency employees. The IRS
recognizes that privacy protection is both a personal and fundamental right of all
taxpayers and employees. However, it has not established effective processes to ensure
that PIAs are completed timely, updated, and made publicly available, and that privacy
policies are posted on public websites for all required systems and collections of
information.

In December 2011, the IRS implemented the Privacy Impact Assessment Management
System (PIAMS) to automate the process of completing PIAs in a more efficient and less
time-consuming way. However, several key processes were not effectively automated.
For example, privacy analysts must view numerous individual screens rather than
scrolling through the information seamlessly; responses in the system are not grouped by
topic or subject matter; and the automated e-mail notification function is not consistent.

TIGTA made several recommendations to the IRS that included the following:

        Establish an annual reconciliation of PIA inventories with information systems and
         collections of information in the current production environment;
        Document and publicize the customer survey PIA completion process;
        Establish a PIA inventory control process to identify and review systems every
         three years as required;
        Automate the notification process to alert responsible officials when new or existing
         PIAs are required to be posted to the IRS public website;
        Ensure that current and complete standard operating procedures are established
         and maintained for all PIA processes; and
        Ensure that the IRS officials who develop third-party website information are
         directed to submit website proposal details and approval requests to the IRS New
         Media Governance Council, and coordinate with website owners to post a link to
         the IRS privacy policy on these third-party websites.

The IRS agreed with most of these recommendations, but indicated that it had already
implemented two recommendations by overhauling the PIAMS template and involving
privacy analysts and other users in requirements-gathering and testing of PIAMS
functionality. TIGTA did not see evidence of these corrective actions and continues to
believe that the PIAMS version, at the time of TIGTA’s review, could be improved to
effectively automate the key privacy impact assessment processes.
Reference No. 2013-20-023

14         October 1, 2012 – March 31, 2013
                     TIGTA SEMIANNUAL REPORT TO CONGRESS


Tax Compliance Initiatives

Tax compliance initiatives include the administration of tax regulations, collection of the
correct amount of tax from businesses and individuals, and oversight of tax-exempt and
government entities. Increasing voluntary taxpayer compliance and reducing the Tax
Gap19 remain the focus of many IRS initiatives. Although the IRS reported that the Tax
Gap is caused by both unintentional taxpayer errors and willful tax evasion or cheating, it
does not have sufficient data to distinguish the amounts attributable to each. The IRS
also reported that a meaningful improvement in the voluntary compliance rate requires a
long-term, focused effort involving taxpayer service, modernization, and enforcement.

Actions Can Be Taken to Reinforce the Importance of Recognizing and
Investigating Fraud Indicators During Office Audits

Penalties, such as for civil fraud, are designed to promote voluntary compliance by
imposing an economic cost on taxpayers who choose not to comply with the tax law.
Because indicators of fraud are not always recognized and properly investigated, the IRS
may be missing opportunities to further promote voluntary compliance and enhance
revenue for the Department of the Treasury.

TIGTA reviewed a statistical sample of 100 office audits, closed between October 2009
and September 2010, that involved high-income and sole proprietor taxpayers who
agreed that they owed additional taxes of at least $10,000. TIGTA identified 26 audits
with fraud indicators that were not recognized and investigated in accordance with some
key IRS procedures and guidelines. When the sample results were projected to the
population of 3,674 closed office audits meeting the above characteristics, TIGTA
estimated that fraud indicators were not recognized and investigated in approximately 939
office audits during Fiscal Year (FY) 2010. TIGTA estimated that taxpayers may have
avoided additional assessments totaling approximately $5.8 million in civil fraud penalties.

TIGTA recommended that the IRS:

        Standardize the process for office audit examiners’ documentation of fraud
         consideration by developing and implementing a specific job aid that requires
         examiners to acknowledge which indicators, if any, were considered during the
         audit; and
        Develop additional criteria and guidance for when a discussion should be held
         between the examiner and first-line manager about the potential fraudulent activity
         of a taxpayer, to cover instances other than omissions of income.

IRS management partially agreed with both recommendations. With respect to the first
recommendation, the IRS plans to review existing guidelines and make revisions to

19
  The IRS defines the Tax Gap as the difference between the estimated amount taxpayers owe and the
amount they voluntarily and timely pay for a tax year.
                                                          October 1, 2012 – March 31, 2013           15
          TIGTA SEMIANNUAL REPORT TO CONGRESS


standardize the process for documenting the consideration of fraud. TIGTA believes that
this planned corrective action is responsive to the recommendation.

With respect to the second recommendation, the IRS plans to provide a guidance
memorandum to emphasize when a discussion should be held between the examiner and
first-line manager about potential fraudulent activity. However, it did not agree to provide
additional criteria related to overstated deductions. As such, it is unlikely that the
corrective action will be effective. Overstated deductions can be just as egregious as
omissions of income and result in the same tax loss to the Government. Moreover,
the IRS agreed that the recommendations have the potential to increase revenue by
$29 million over five years. Therefore, TIGTA continues to believe that the IRS should
expand the requirement for examiners and first-line managers to discuss potential
fraudulent behavior beyond unreported income.
Reference No. 2013-30-020

Taxpayer Referrals of Suspected Tax Fraud Result in Tax Assessments, but
Processing of the Referrals Could Be Improved

When individuals want to report possible instances of Federal tax fraud by a taxpayer, the
IRS instructs them to complete and mail Form 3949-A, Information Referral, or to provide
this information via a letter. During FYs 2010 through 2012, the IRS’s Small
Business/Self-Employed (SB/SE) and Wage & Investment (W&I) Divisions received and
screened 274,976 Forms 3949-A. During that same time period, examinations initiated
from Form 3949-A referrals resulted in more than $66.5 million in tax assessments.

TIGTA determined that both the SB/SE and W&I Division screeners improperly screened
Forms 3949-A. While improvements to the processes and better communication with the
IRS’s Accounts Management function will reduce the number of referrals the divisions
receive, other issues affect the screeners’ ability to research and identify referrals worthy
of examination. Neither division has a routine review process to evaluate screened
referrals not selected for examination. Routine checks of screened work would identify
potential areas for improvement. In addition, the SB/SE Division does not have specific
guidelines for screeners. More detailed guidelines would allow SB/SE Division screeners
to be more consistent when evaluating referrals.

The SB/SE and W&I Divisions spent approximately $211,041 to screen the 102,465
Forms 3949-A received for FY 2012 and assessed more than $29 million on taxpayers.
The divisions should reevaluate the Form 3949-A program’s effectiveness once corrective
actions are complete, and determine how much of their limited resources should be
devoted to the program. Increased efficiency may make it more cost-efficient for the
divisions to place a higher priority on these referrals.




16       October 1, 2012 – March 31, 2013
                     TIGTA SEMIANNUAL REPORT TO CONGRESS


TIGTA recommended that the IRS:

        Ensure that it periodically communicates its referral needs to the Accounts
         Management function;
        Conduct routine reviews of screened referrals;
        Develop detailed SB/SE Division standard screening guidelines;
        Implement procedures to include information about each misrouted referral sent to
         another function or returned to the Accounts Management function; and
        Assess the value of the Form 3949-A program once the IRS implements the
         corrective actions resulting from a previous TIGTA report.20

IRS management agreed with the recommendations and stated that it plans to take
corrective actions.
Reference No. 2013-40-022

The Compliance Assurance Process Has Received Favorable Feedback, but
Additional Analysis of Its Costs and Benefits Is Needed

Unlike traditional audits, where tax issues are often resolved long after the tax return is
filed, taxpayers volunteer to participate in the Compliance Assurance Process (CAP) and
strive to resolve potential tax issues before a tax return is filed. The CAP, according to
the IRS’s Large Business and International (LB&I) Division statistics, reduces the length
of the audit process for both the IRS and large businesses. For taxpayers, achieving tax
return certainty can significantly enhance public and investor confidence. While this and
other CAP benefits are important, it is equally important for the LB&I Division to ensure
that devoting enforcement resources to the CAP does not diminish the Division’s ability to
provide audit coverage of large businesses that do not comply with the tax laws and
choose not to volunteer for the CAP.

The CAP is administered in accordance with IRS policies and procedures, and the pilot
program followed many key best practices in the design and testing of the process.
However, although the CAP pilot program ran for six calendar years and the permanent
program is in its second calendar year of operation, the LB&I Division has yet to develop
and implement a plan to thoroughly evaluate CAP data.

TIGTA’s analysis found that CAP audits are consuming substantially more staff hours
than those under the traditional audit process. This makes the hourly revenue rate for the
CAP approximately a third of the hourly rate examiners generate from traditional audits:
$2,939 versus $8,448, respectively. TIGTA also found that the CAP has not yet been
reviewed as a potential new user fee source.




20
  TIGTA, Ref. No. 2012-40-106, The Process for Individuals to Report Suspected Tax Law Violations Is Not
Efficient or Effective p. 3 (Sept. 2012).
                                                            October 1, 2012 – March 31, 2013         17
              TIGTA SEMIANNUAL REPORT TO CONGRESS


TIGTA recommended that the IRS:

         Develop and implement an evaluation plan to verify that the CAP is delivering
          sufficient benefits in relation to the costs being incurred; and
         Ensure that the CAP is assessed as a potential new user fee source once the IRS-
          wide user fee guidelines are revised and implemented.

IRS management agreed with the recommendations and stated that it plans to take
corrective actions.
Reference No. 2013-30-021

Interim Results of the 2013 Filing Season

The filing season, defined as the period from January 1 through mid-April, is critical for
the IRS because it is during this time that most individuals file their income tax returns
and contact the IRS if they have questions about specific tax laws or filing procedures.

The IRS delayed the start of the filing season from January 22, 2013 to January 30, 2013
as a result of the enactment of the American Taxpayer Relief Act of 2012.21 Most
taxpayers were able to file their tax return starting on January 30, 2013. However, some
taxpayers had to wait to file their tax return until early March 2013. The IRS began
accepting all individual tax returns on March 4, 2013. As of March 9, 2013, the IRS had
received more than 65.1 million tax returns. More than 59.5 million (91 percent) were
filed electronically, and approximately 5.6 million (9 percent) were filed on paper. The
IRS has issued more than 53.4 million refunds totaling in excess of $154 billion.

The IRS is continuing to expand its efforts to detect tax refund fraud. As of March 9,
2013, the IRS reported that it had identified 220,821 tax returns with $1.86 billion claimed
in fraudulent refunds, and had prevented the issuance of $1.79 billion (96.2 percent) of
those fraudulent refunds. In addition, the IRS had identified and confirmed 85,385
fraudulent tax returns involving identity theft, and had identified another 87,817 prisoner
tax returns for screening.

Taxpayers’ use of the split refund option to deposit a refund directly into multiple bank
accounts continues to be frequently used. However, TIGTA found that some taxpayers
and tax return preparers may be misusing this option. TIGTA also found that some paid
tax return preparers continue to be noncompliant with Earned Income Tax Credit due-
diligence requirements. In addition, the IRS continues to issue potentially erroneous
education credits for individuals who are not of a traditional age to be pursuing a four-year
degree or vocational program.

During FY 2013, the IRS plans to assist six million taxpayers through face-to-face contact
at Taxpayer Assistance Centers, which will be 11.8 percent fewer taxpayers than were
assisted during FY 2012. As of March 9, 2013, approximately 56.5 million taxpayers had

21
     Pub. L. No. 112-240, 126 Stat. 2313 (2013).
18           October 1, 2012 – March 31, 2013
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


contacted the IRS by calling the various Customer Account Services function’s toll-free
telephone assistance lines. The IRS is also continuing to expand its online and social
media presence, and now has a mobile application (IRS2Go); YouTube channels; as well
as Twitter, Tumblr, and Facebook accounts.
Reference No. 2013-40-035

Implementing the Affordable Care Act and Other Tax Law Changes

Each filing season tests the IRS’s ability to implement tax law changes made by
Congress because the IRS must often act quickly to assess the changes and determine
the necessary actions to:

        Ensure that all legislated requirements are satisfied;
        Create new or revise existing tax forms, instructions, and publications;
        Revise internal operating procedures; and
        Reprogram major computer systems used for processing tax returns.

The Affordable Care Act22 (ACA) contains an extensive array of tax law changes that will
present a continuing source of challenges for the IRS in the coming years. While the
Department of Health and Human Services will have the lead role in the policy provisions
of the ACA, the IRS will administer the law’s numerous tax provisions. The IRS estimates
that at least 42 provisions will either add to or amend the tax code, and that at least eight
provisions will require the IRS to build new processes that do not exist within the current
system of tax administration.

Affordable Care Act -- The Income and Family Size Verification Project:
Improvements Could Strengthen the IRS’s New Systems Development Process

The Income and Family Size Verification (IFSV) Project is a core aspect of the ACA
Program and will support open enrollment beginning in October 2013. The IFSV Project
is important to the functionality and success of the ACA Program because it is
responsible for developing a solution that will verify income and family size, based on tax
return data, for the purpose of determining an individual’s eligibility for the advanced
premium tax credit for health insurance.

By the end of August 2012, the IFSV Project had completed all six systems development
components, each delivering a piece of approved functionality. While cost data specific to
the IFSV Project were not readily available during the audit, the IRS is generally
managing systems development risk areas with the implementation of the new Iterative
Path23 within the Enterprise Life Cycle.24 However, process improvements are needed to

22
   Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code),
as amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat.
1029.
23
   The Iterative Path is an adaptive development approach in which projects start with initial planning and
end with deployment, with repeated cycles of requirement discovery, development, and testing in between.
                                                              October 1, 2012 – March 31, 2013           19
           TIGTA SEMIANNUAL REPORT TO CONGRESS


better ensure that: (1) the IFSV Project team adheres to configuration management
guidelines when base-lined requirements are changed; and (2) the ACA Program
Configuration Control Board emergency meeting processes are effectively
communicated. Further, an integrated suite of automated tools could improve
requirements management and testing for the IFSV Project.

TIGTA made three recommendations to the IRS, and IRS management stated that it
plans to take corrective actions for two of these recommendations.

The IRS disagreed with the third recommendation to implement a standard suite of
integrated, automated tools for the ACA Program and ACA projects. Notwithstanding the
IRS’s response, TIGTA believes that an action plan to address this recommendation
would permit the IRS to better ensure long-term success for the IFSV Project along with
the many other information technology components and systems supporting new
functionality and transactions required to address its mission-critical capabilities under the
ACA.

Lastly, the IRS disagreed with the statement in the report that cost data were not readily
available during the audit. TIGTA maintains that cost information was not readily
available because it took the IRS 28 business days to provide basic budget and cost data.
Reference No. 2013-23-034

Fraudulent Claims and Improper Payments

An improper payment includes any payment that should not have been made or that was
made in an incorrect amount (both overpayments and underpayments) under statutory,
contractual, administrative, or other legally applicable requirements. Erroneous and
improper payments issued by the IRS generally involve improperly paid refunds, tax
return filing fraud, or improper payments to vendors or contractors.

Further Efforts Are Needed to Ensure the IRS Prisoner File Is Accurate and
Complete

The number of tax returns filed by prisoners and identified by the IRS as fraudulent has
increased from more than 18,000 tax returns in Calendar Year 2004 to more than 91,000
tax returns in Calendar Year 2010. During that time, the refunds claimed on these returns
increased from $68 million to $757 million. The accuracy and reliability of the Prisoner
File25 directly affects the IRS’s ability to stop fraudulent refunds.

Despite the IRS’s increased efforts to improve the accuracy of the Prisoner File, some
prisoner information contained in the file is inaccurate. Moreover, the file contains

24
   The IRS’s software development life cycle for information technology projects. It provides the critical
framework/foundation for IRS information technology projects. The Enterprise Life Cycle facilitates project
success through critical step-by-step discipline and structure.
25
   The Prisoner File is a list of prisoners from the Bureau of Prisons and State Departments of Corrections.
20         October 1, 2012 – March 31, 2013
                       TIGTA SEMIANNUAL REPORT TO CONGRESS


incomplete records, and not all facilities that house prisoners reported prisoners. As a
result, controls used to ensure that the IRS identifies fraudulent refunds on tax returns
prepared by prisoners are not fully effective.

The majority of the inaccuracies identified were due to misinformation. Of the 2.8 million
records on the 2012 Prisoner File, 2.3 million (82 percent) matched the information on the
Social Security Administration’s (SSA) records. More than 260,000 (nine percent)
records had information missing, and 240,000 (nine percent) records did not match SSA
records. Most of these issues are beyond the control of the IRS. Nonetheless, the IRS
can take steps to improve its validation and verification processes. TIGTA recommended
that the IRS ensure the validation and verification of future IRS Prisoner Files. 26

IRS management plans to continue to assess the effectiveness of the validation activities
performed on the Prisoner File. IRS management also stated that new programming and
procedures will be deployed for Calendar Year 2013. However, TIGTA believes that the
new programming and procedures are unrelated to the Prisoner File validation process
and will not ensure the reliability and accuracy of the Prisoner File.
Reference No. 2013-40-011

Improper Payment Elimination and Recovery Act Risk Assessments of Revenue
Programs Are Unreliable

Improper payments cost taxpayers billions of dollars annually across Federal programs.
The IRS estimates that it paid $15.2 billion in improper Earned Income Tax Credit (EITC)
payments in FY 2011. Ineffective risk assessment processes can affect Governmentwide
actions to protect taxpayer dollars from waste, fraud, and abuse.

The IRS used the Department of the Treasury’s Improper Payment Risk Assessment
Questionnaire (the Questionnaire) and guidance to complete the FY 2011 risk
assessment for each designated administrative and revenue program fund. TIGTA
determined that the risk assessment process adequately reflects the risk of improper
payments in the IRS’s administrative program funds.

However, the process does not provide a reliable assessment of the risk of improper
payments in the IRS’s revenue program funds. The IRS’s review process for revenue
program fund risk assessments is informal and did not always adhere to required
guidelines for performing the assessment. The design of the Questionnaire does not
provide an adequate assessment of the risk associated with tax refunds. For example,
not all of the questions apply to tax refund payments. Depending on the response to

26
   At the time the audit report was issued, the IRS did not have the authority to disclose to prisons
information related to prisoner-filed fraudulent tax returns or prisoner identity issues. The audit report stated
that this limited the ability of prison officials to curtail prisoners’ continued abuse of the tax system, and
TIGTA recommended that legislation was needed to permanently authorize the IRS to share data with
prisons. Subsequently, Congress passed the American Taxpayer Relief Act of 2012, Pub. L. No. 112-240,
126 Stat. 2313 (2013), which permits the IRS to share return and return information with certain prison
officials under I.R.C. § 6013.
                                                                 October 1, 2012 – March 31, 2013             21
              TIGTA SEMIANNUAL REPORT TO CONGRESS


these questions, the program’s risk score can be affected. In addition, questions
pertaining to other areas of potential risk within tax administration are not included in the
Questionnaire.

Other issues, such as insufficient verification of identity or income, can pose a significant
risk for improper payments. Prior TIGTA reports indicated that this risk could be
significant. As a result of identity theft, the IRS may have paid $5.2 billion in potentially
fraudulent tax refunds on 1.5 million tax returns in Tax Year 2010. TIGTA also previously
found that the verification process for Individual Taxpayer Identification Number
applications was substantially deficient. More than 481,500 tax returns associated with
these applications had claims for the Additional Child Tax Credit totaling more than
$916 million.

Moreover, TIGTA’s analysis of the information that the IRS provided to the Department of
the Treasury for inclusion in the Department’s financial report showed that the IRS is not
in compliance with all Improper Payments Elimination and Recovery Act of 201027
(IPERA) requirements. Specifically, the IRS has not established annual EITC improper-
payment reduction targets and it has not reported an improper payment rate of less than
10 percent. This is the second consecutive year that the IRS is not in compliance with the
IPERA.

TIGTA recommended that the IRS:

         Work with the Department of the Treasury to better identify the IRS programs to be
          included in the risk assessments for improper payments, and refine the
          Questionnaire to ensure that all questions are applicable to tax administration and
          more accurately reflect the risks associated with tax refund payments;
         Develop a formal process for assigning responsibility for the completion of the risk
          assessments; and
         Develop a process to ensure that the Department of the Treasury guidance is
          followed.

IRS management agreed with the recommendations and stated that it plans to take
corrective actions.
Reference No. 2013-40-015 and 2013-40-024

Human Capital

At a time when agencies are preparing for increased retirements and taking on such
challenges as implementing the numerous health care tax provisions, the recruitment and
retention of employees plays a key role in maintaining a quality workforce. The IRS is
faced with the challenge of having the right people in the right place at the right time while
it replaces the existing talent caused by the large number of retirements expected over

27
     Pub. L. 111-204, 124 Stat. 2224.
22           October 1, 2012 – March 31, 2013
                   TIGTA SEMIANNUAL REPORT TO CONGRESS


the next several years. This situation is made more difficult by many complex internal
factors, such as greater expertise required for the job, and external factors, such as
competition with other Federal agencies and with private industry for the same human
resources. Moreover, budget constraints, legislative changes, and economic shifts can
create unforeseen challenges for the IRS in addressing its long-term human capital
issues.

New Employees Are Being Hired More Quickly; However, Improvements Are
Needed to Correct Some Hiring Monitoring Data

Hiring quality employees quickly is important to the IRS, as it hires a large number of
employees each year. The IRS’s divisions and its Human Capital Office have taken
action to reduce hiring timelines. However, they will need to continue to focus on keeping
hiring timelines low and making additional improvements. If not, as the economy
improves and the IRS competes more with the private sector, the IRS may encounter
difficulties attracting highly qualified candidates. This could impact the IRS’s ability to
meet its mission of providing America’s taxpayers top quality service.

The IRS’s divisions and its Human Capital Office have taken action to monitor and
improve the efficiency of hiring new employees. Most improvements have resulted
from automating time-consuming manual steps in the hiring process and monitoring
in-process hiring. For example, in a little more than two years the Information Technology
organization has cut the time it takes to hire new employees by more than half. As a
result, it is close to meeting the 80-calendar-day hiring goal of the Office of Personnel
Management (OPM).

Similarly, actions taken by the IRS’s W&I Division have reduced hiring timelines and
brought it close to meeting the OPM’s hiring goal. The IRS’s SB/SE Division uses a hiring
process that is based on bringing large groups of employees on board at the same time
for training and orientation purposes. While this may result in efficient training and
orientation programs for enforcement personnel, it can take up to 200 calendar days to
hire employees, which results in failing to meet the hiring goal.

In addition, TIGTA determined that data for monitoring the time taken to hire new
employees was not always correct. TIGTA identified that IRS’s Human Capital Office
report data was incorrect for nine (38 percent) of the 24 Information Technology
organization hires in TIGTA’s sample. The incorrect data occurred because an incorrect
certificate (a list of applicants that is certified by the IRS’s Human Capital Office) was
selected for manually rated and ranked applications. Finally, the IRS’s Human Capital
Office did not correctly enter the date that the rating and ranking package was returned
from the hiring manager. As a result, IRS divisions cannot rely on the reports to monitor
in-process hiring or to identify when hiring delays occur.

Despite progress, continued focus by IRS executive management on human capital is
needed due to key internal and external challenges. For example, in the last two fiscal
years, the IRS workforce has decreased by about 10,000 full-time equivalents, and many
                                                     October 1, 2012 – March 31, 2013    23
           TIGTA SEMIANNUAL REPORT TO CONGRESS


of its most experienced leaders and employees will be eligible to retire in the next
five years. At the same time, significant tax code changes are being made, and the IRS
needs to make improvements to stop the billions of dollars in tax refunds resulting from
identity theft and erroneous claims for tax credits.

TIGTA recommended that the IRS:

        Deactivate certificates that are not used;
        Provide guidance to employment offices for selecting the correct certificates; and
        Correct computer report-writing programming to ensure that correct dates are used
         in calculating hiring timelines.

TIGTA has already reported that the IRS needs to develop an agencywide strategy for
integrating new employees into the workforce, because some best practices that would
help new employees become more productive were not fully implemented. For instance,
contrary to IRS policy, one-quarter of the new employees TIGTA contacted were not
assigned a coach or mentor when they arrived. While difficult, successfully addressing
human capital challenges will help the IRS to do more with less and effectively meet its
tax administration responsibilities.

IRS management agreed with the recommendations and implemented or plans to
implement corrective actions.
Reference No. 2013-10-007 and 2013-10-017

Achieving Program Efficiencies and Cost Savings

Given the current economic environment and the increased focus by the Administration,
Congress, and the American people on Government accountability and efficient use of
resources, the American people must be able to trust that their Government is taking
action to stop wasteful practices and to ensure that every tax dollar is spent wisely. While
the IRS has made progress in using its data to improve program effectiveness and reduce
costs, this area continues to be a major challenge.

Improvements Are Needed to Ensure That Performance Measures Are Balanced
and Adequately Assess the Effectiveness of the Collection Program

Having measures that provide ongoing performance information to management and
stakeholders is critical to sound decision making in any organization. In the IRS, such
information assists IRS management and Congress in making decisions about how to
fund and allocate resources to collect the estimated $360 billion of taxes from taxpayers
who owe but have not paid. This, in turn, helps reduce the risk of creating an unfair
burden on the vast majority of taxpayers who pay their taxes in full and on time.

TIGTA found that the Collection Program’s performance measures were captured
accurately and noted several favorable trends among the measures reported in its

24         October 1, 2012 – March 31, 2013
                        TIGTA SEMIANNUAL REPORT TO CONGRESS


operational performance reports. For example, the total dollars collected in FY 2011 were
20 percent higher than the amount collected in FY 2009, even though there were fewer
revenue officers on staff. Revenue officers also completed investigations quicker and
made trust fund penalty determinations faster in FY 2011 compared to FY 2009.

TIGTA also identified three ways that the Collection Program could enhance how it
monitors, measures, and reports its accomplishments. First, the IRS could integrate its
balanced measures to include customer and employee satisfaction and business results
into all performance reports. This would help hold managers and staff across Collection
Program areas accountable for, and focused on, balancing service to taxpayers with
enforcing the tax laws, as articulated in the IRS mission statement and its two strategic
goals and one strategic foundation. Second, the IRS could link the Collection Program’s
68 operational-level performance measures to a specific operational objective and to one
or more of the IRS’s strategic goals. Such links can show Collection Program managers
how their day-to-day activities contribute to attaining the Collection Program’s operational
objectives and the broader IRS strategic goals. Finally, the IRS could develop and
implement meaningful performance targets for each of the operational-level measures. If
objectively established, the targets would help Collection Program managers avoid any
perception of bias or manipulation in the monitoring and reporting of progress in meeting
their pre-established objectives.

TIGTA recommended that the IRS:

         Ensure that customer satisfaction and employee satisfaction measures are
          included in all performance reports; and
         Establish a performance measure and target for each operational objective.

IRS management agreed with the recommendations and stated that it plans to take
corrective actions.
Reference No. 2013-30-028

Inadequate Aircard and BlackBerry® Smartphone Assignment and Monitoring
Processes Result in Millions of Dollars in Unnecessary Access Fees

In FY 2011, the IRS had approximately 35,000 active aircards and more than 4,400
BlackBerry® smartphones assigned to employees, providing them with mobile Internet
and e-mail access. TIGTA found that cost savings can be achieved if the IRS ensures
that only those employees with a valid business need are assigned an aircard and/or
BlackBerry® smartphone, and if the IRS conducts more effective oversight and
monitoring of these devices. Improved policies and procedures can result in savings of
$5.9 million over five years, which would help to support the President’s November 2011
Executive Order to cut waste in Federal Government spending and identify opportunities
to promote efficient and effective spending.28


28
     Exec. Order No. 13,589, 3 C.F.R. 282 (2011); 3 CFR, 2011 Comp., p. 282.
                                                              October 1, 2012 – March 31, 2013   25
           TIGTA SEMIANNUAL REPORT TO CONGRESS


Processes for assigning and monitoring the use of aircards and BlackBerry®
smartphones are not adequate to ensure that employees have a business need for the
devices. Assignment of these devices is generally based on job series classifications
without adequately ensuring that a business need exists.

In addition, the IRS paid approximately $1.1 million during FY 2011 for 13,878 aircards
and 754 BlackBerry® smartphones that were not used for periods of between
three months to one year. For example, TIGTA identified 45 aircards and 68 BlackBerry®
smartphones that were not used at all for the entire 12 months of the fiscal year.

Finally, 2,560 employees may have been assigned an aircard or BlackBerry®
smartphone without required management approval. These devices cost the IRS more
than $950,000 in FY 2011, or about $4.8 million over five years.

TIGTA recommended that the IRS:

        Develop processes to periodically evaluate which job series are profiled for
         aircards and BlackBerry® smartphones and ensure that managerial approval of
         devices is based on business need;
        Establish a pooling policy for aircards;
        Review its inventory records to identify devices shown as assigned to employees
         without proper management approval;
        Develop a formalized process to identify BlackBerry® smartphones with no usage;
         and
        Identify whether BlackBerry® smartphones with no data use could be replaced
         with a lower-costing cellular telephone.

IRS management agreed with some of the recommendations and stated that it plans to
take corrective actions. It disagreed with the other recommendations, citing previously
existing procedures. Based on the large number of unapproved and unused devices
identified during the audit, TIGTA believes that the IRS should take action to enhance its
existing controls.
Reference No. 2013-10-010




26         October 1, 2012 – March 31, 2013
                   TIGTA SEMIANNUAL REPORT TO CONGRESS



   Protect the Integrity of Tax Administration


T
        IGTA is statutorily charged with protecting the integrity of Federal tax
        administration. TIGTA accomplishes its mission, in part, through the investigative
        case work conducted by the Office of Investigations (OI). Through its
        investigative programs, OI protects the integrity of the IRS by investigating IRS
        employee misconduct and criminal activity, threats to employees and facilities,
and attempts to impede or otherwise interfere with the IRS’s ability to collect taxes.

Physical violence, harassment, and intimidation of IRS employees pose significant
challenges to the implementation of a fair and effective system of tax administration.
TIGTA places the highest priority on its statutory responsibility to safeguard approximately
92,500 IRS employees located in over 670 facilities nationwide. OI is committed to
ensuring the safety of IRS employees and the security of IRS facilities.

The Performance Model
                                             OI’s investigative resources are allocated
                                             based upon a performance model that focuses
                                             on three primary areas of investigation:
                                             1) employee integrity; 2) employee and
                                             infrastructure security; and 3) external
                                             attempts to corrupt tax administration.

                                             The performance model provides reliable
                                             statistical data which assist in mission-critical
                                             decisions regarding staffing, budgeting, and
                                             training. OI’s performance model measures
                                             the ratio of those investigations that have the
                                             greatest impact on IRS operations or the
                                             protection of Federal tax administration to the
total number of investigations conducted. These performance measures guide OI’s
activities and help demonstrate to its external stakeholders the value of its
accomplishments.

Employee Integrity
IRS employee misconduct, real or perceived, erodes public trust and undermines the
IRS’s ability to collect taxes and deliver taxpayer services. This misconduct manifests
itself in a variety of ways, including theft, fraud, extortion, false statements, taxpayer
abuses, and unauthorized access to and disclosure of tax return information. IRS
employees are entrusted with the sensitive personal and financial information belonging
to United States taxpayers. Because the Federal tax system is based on voluntary
compliance, it is essential that information given to the IRS for tax administration
purposes is protected.
                                                       October 1, 2012 – March 31, 2013      27
           TIGTA SEMIANNUAL REPORT TO CONGRESS


During this reporting period, employee
misconduct investigations accounted for
53 percent of OI’s work. The following
cases are representative of OI’s efforts to
ensure employee integrity during this six-
month reporting period.

James Lee Dardy Sentenced for Conspiracy to Steal Tax Remittance Checks

According to court documents, between approximately June 2011 and October 2011,
James Lee Dardy worked as a mailroom clerk in an IRS branch office located in Miami,
Florida. In approximately June 2011, Dardy and a co-conspirator agreed to steal checks
that had been mailed to the IRS branch office where Dardy worked and they agreed to
share the stolen money. Dardy stole checks made payable to the IRS from the IRS
mailroom and provided them to his co-conspirator.29

The co-conspirator altered the name on the payee line of the tax remittance checks. He,
or an individual acting at his direction, deposited the stolen checks into a bank account
belonging to another co-conspirator. The illicit proceeds were dispersed to the co-
conspirators by wire transfer and postal money order.30

On January 30, 2013, in the Southern District of Florida, Dardy was sentenced to five-
years probation, ordered to perform 100-hours of community service and ordered to
participate in the Home Detention Electronic Monitoring Program for one year. Dardy was
also ordered to pay $21,152 restitution.31

Antonio Willabus Pleads Guilty to False Statements

On January 18, 2013, in the District of Maryland, Antonio Willabus pled guilty to making a
false statement.32 According to court documents, Willabus was employed by the IRS and
worked a compressed week schedule. In addition, he was placed on a “flexiplace” work
schedule that permitted him to work at his home on designated days. Willabus entered
his own time, attendance, and leave data into the IRS’s database. His supervisor would
then validate the time and attendance based on approved leave requests.33 On or about
January 13, 2012, Willabus falsely certified in his database entry that he had worked
designated hours when in fact he had not worked the hours and had taken time off
without authorization. As a result, Willabus received approximately $28,692 in salary for
hours that he did not work.34




29
   S.D. Fla. Stipulated Factual Proffer filed Nov. 5, 2012.
30
   S.D. Fla. Indict. filed Sept. 25, 2012.
31
   S.D. Fla. Judgment filed Feb. 1, 2013.
32
   D. Md. Plea Agreement filed Jan. 18, 2013; D. Md. Criminal Docket entry dated Jan. 18, 2013.
33
   D. Md. Indict. filed July 16, 2012.
34
   Id.
28        October 1, 2012 – March 31, 2013
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


Cynthia Lewis Sentenced for Unauthorized Disclosure of Tax Return Information

On February 11, 2013, in the Eastern District of California, Cynthia Lewis was sentenced
to 24-months probation for unauthorized disclosure of tax return information by a Federal
employee.35 According to court documents, Lewis, an IRS employee, willfully disclosed
tax return or return information to other persons without authorization to do so. The
unauthorized disclosures began in about October 2010, and continued to about March
2011.36 On August 16, 2012, Lewis was indicted by a grand jury for the violation,37 to
which she subsequently pled guilty on November 19, 2012.38

Terri Fiorini Sentenced for Unauthorized Inspection of Tax Return Information

On November 29, 2012, in the Eastern District of California, Terri Fiorini was sentenced to
one-year unsupervised probation for unauthorized inspection of tax return information.
She was also ordered to pay a $1,000 fine.39 According to court documents, Fiorini
knowingly and willfully inspected Federal tax return information without authorization while
working as an employee of the IRS by accessing the electronically stored tax return
information of six individuals. The unauthorized inspection occurred between about May
2010 and January 2012.40

Dora Broadnax Sentenced for Unauthorized Inspection of Tax Returns

On October 9, 2012, in the Eastern District of Virginia, Dora Broadnax was sentenced to
one-year supervised probation for unauthorized inspection of tax returns.41 According to
facts admitted in court documents, Broadnax was hired by the IRS as an Individual
Taxpayer Advisory Specialist in 1999, and held that position at the time she committed
the unauthorized inspection of tax returns. As an Individual Taxpayer Advisory Specialist,
Broadnax had access to tax return and return information of United States taxpayers
through computers for business purposes. In the months of January and June 2011,
Broadnax willfully inspected tax returns and return information of taxpayers without
authorization and for purposes unrelated to her official duties.42

Employee and Infrastructure Security
Tax revenue is critical to our Nation’s infrastructure. Threats and assaults directed at IRS
employees, facilities, data, and computer systems impede the effective administration of
the Federal tax system. Contact with the IRS can be stressful and taxpayers may
become confrontational or even violent. Taxpayers have made threats against IRS
employees and some have even physically assaulted employees. TIGTA has statutory
35
   E.D. Cal. Judgment filed Feb. 12, 2013.
36
   E.D. Cal. Memorandum of Plea Agreement filed Oct. 31, 2012; and E.D. Cal. Indict. filed Aug. 16, 2012.
37
   E.D. Cal. Indict. filed Aug. 16, 2012.
38
   E.D. Ca. Crim. Docket filed Nov. 27, 2012.
39
   E.D. Cal. Judgment filed Dec. 3, 2012.
40
   E.D. Cal. Memorandum of Plea Agreement filed Sept. 28, 2012.
41
   E.D. Va. Judgment filed October 9, 2012.
42
   E.D. Va. Statement of Facts filed October 9, 2012.
                                                             October 1, 2012 – March 31, 2013           29
              TIGTA SEMIANNUAL REPORT TO CONGRESS


responsibility to protect Federal tax administration by identifying, investigating and
responding to threats against IRS personnel and physical infrastructure.

Over the past several years, our Nation has experienced numerous random shooting
incidents in schools, private offices and public areas. As part of its mission to protect IRS
assets, especially employees, against all threats, TIGTA special agents are trained to
respond to any and all such unpredictable and violent events that may occur in IRS
facilities.

TIGTA’s partnership with the IRS Office of Employee Protection (OEP) to identify
potentially dangerous taxpayers is one example of TIGTA’s commitment to protecting IRS
employees. If a taxpayer has been designated as potentially dangerous, TIGTA conducts
a follow-up assessment of the taxpayer so that OEP can determine if the taxpayer still
poses a danger to IRS employees.

TIGTA special agents are responsible for providing physical security, known as “armed
escorts,” to IRS employees in certain dangerous situations. Upon request, TIGTA’s
special agents escort IRS employees when they require personal contact with a
potentially dangerous taxpayer. These armed escorts provide a safe environment for the
IRS employee to conduct tax administration functions. During this reporting period, OI
conducted 36 armed escorts for IRS employees.

In support of its proactive threat initiatives, TIGTA maintains a full-time presence at the
Federal Bureau of Investigation’s National Joint Terrorism Task Force and the Domestic
Terrorism Operations Unit. These special agents are responsible for timely dissemination
of threat information that directly impacts IRS personnel, facilities, or critical infrastructure
to the appropriate officials.

During this six-month reporting period, threat
and assault investigations accounted for 35
percent of OI’s work. The following cases
represent some of OI’s efforts to safeguard
IRS employees during this reporting period.

Jason Bowser Sentenced for Threat Against a Federal Official

On December 19, 2012, in the Middle District of Pennsylvania, Jason Bowser was
sentenced to time served for making a threat against a Federal official.43 According to
court documents, on or about March 1, 2012, Bowser threatened to assault and murder
IRS agents, with intent to impede, intimidate, and interfere with the agents while engaged
in performance of their official duties.44




43
     M.D. Pa. Judgment filed Dec 19, 2012.
44
     M.D. Pa. Indict. filed Apr. 25, 2012.
30           October 1, 2012 – March 31, 2013
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


Elizabeth Cowart Sentenced for Attempt to Interfere With Administration of Internal
Revenue Laws

Elizabeth Cowart was sentenced for attempting to interfere with the administration of
Internal Revenue laws.45 In April 2012, Cowart telephoned the IRS Tax Help Line from
Thomasville, Georgia. She spoke with an IRS Contact Representative to inquire about
the status of her 2011 Federal income tax refund. Because Cowart was the victim of an
identity theft, processing of her tax refund had been delayed. The IRS Contact
Representative told her that she could expect to receive her refund by April 23, 2012.46

Cowart was not satisfied with this answer and asked to speak with someone else. She
was told that no one else was available but that she could go to her local walk-in office for
assistance. Cowart then stated, "If it is not here on April 23rd, I'm going to go to my local
... local office with a machine gun; and I'm gonna shoot every *** body in there. I will
go. Oh, I will."47

Cowart pled guilty on December 12, 2012, to attempting to interfere with the
administration of Internal Revenue laws.48 On March 7, 2013, in the Middle District of
Georgia, Albany Division, she was sentenced to 12-months probation.49

External Attempts to Corrupt Tax Administration

TIGTA is statutorily mandated to investigate external attempts to corrupt or interfere with
the administration of Internal Revenue laws. Bribes offered by taxpayers to compromise
IRS employees; the manipulation of IRS systems and programs through the use of false
liens and IRS financial reporting instruments; the use of fraudulent IRS documentation;
and impersonation of IRS officials are some of the ways Federal tax administration can be
corrupted or impeded. These attempts to corrupt or otherwise interfere with tax
administration inhibit the Treasury's ability to collect revenue and undermine the public's
confidence in fair and effective tax administration.

During this reporting period, investigations into
attempts to corrupt or impede tax administration
accounted for 12 percent of OI’s work. The
following cases represent OI’s efforts to deter
external attempts to corrupt tax administration
during this six-month reporting period.




45
   M.D. Ga. Judgment filed Mar. 14, 2013.
46
   M.D.Ga. Plea Agreement filed Dec. 12, 2012.
47
   Id.
48
   M.D.Ga. Minute Sheet: Change of Plea filed Dec. 12, 2012, and M.D.Ga. Indict. filed Sept. 12, 2012.
49
   M.D.Ga. Judgment filed Mar. 14, 2013.
                                                              October 1, 2012 – March 31, 2013           31
            TIGTA SEMIANNUAL REPORT TO CONGRESS


Randy Huffaker Sentenced for Impeding Internal Revenue Laws and Filing False
Liens or Encumbrances against Government Officials

Randy Huffaker was sentenced for impeding Internal Revenue laws and filing false liens
or encumbrances against Government officials.50 Huffaker filed, or attempted to file, false
and fictitious liens or encumbrances against the IRS Commissioner and the Comptroller
of the Currency, both of whom were Government officials protected by Federal law. He
filed these liens and encumbrances knowing that each lien or encumbrance was false and
fictitious. Huffaker repeatedly mailed extensive documents to the personal residence of
the Commissioner regarding Huffaker’s tax debts, in which he demanded action.51

Huffaker was sentenced on March 18, 2013, in the District of Utah, Central Division, to
time served and 12-months’ supervised release. He was also ordered to pay $33,996 in
restitution to the IRS for impeding Internal Revenue laws and filing false liens or
encumbrances against Federal Government officials.52 Huffaker had previously pled
guilty to the charges on December 3, 2012.53

John Williamson Sentenced for Retaliating Against IRS Employees

On November 15, 2012, in the District of New Mexico, John Williamson was sentenced to
four-months in prison for attempting to interfere with the administration of Internal
Revenue laws, and retaliating against Federal employees by false claim, with three-years
supervised release.54 According to the indictment, Williamson attempted to impede the
administration of the Internal Revenue Code by filing a false claim of lien and
encumbrance against the real and personal property of IRS employees for performing
their official duties. Williamson knew that the lien and encumbrance was false and
contained fraudulent statements, including a claim that the IRS employees owed
Williamson approximately $1 billion.55

Gavriel Murdukhayevich Aronov Sentenced for Illegal Gratuity to a Public Official
and Structuring

On February 19, 2013, Gavriel Murdukhayevich Aronov was sentenced in the District of
Arizona for Illegal Gratuity to a Public Official and Structuring.56 Aronov was previously
indicted by a Federal grand jury, charging him with one count of Bribery and nine counts
of Structuring.57 Aronov pled guilty to Illegal Gratuity to a Public Official and Structuring.58


50
   D. Utah Judgment filed Mar. 21, 2013.
51
   D. Utah Stat. in Advance of Plea filed Dec. 3, 2012.
52
   D. Utah Judgment filed Mar. 21, 2013.
53
   D. Utah Crim. Docket filed Feb. 22, 2012; and D. Utah Stat. in Advance of Plea filed Dec. 3, 2012.
54
   D. N.M. Sentencing Minute Sheet filed Nov. 15, 2012.
55
   D. N.M. Indict. filed Oct. 26, 2012.
56
   D. Ariz. Judgment filed Feb. 20, 2013.
57
   D. Ariz. Indict. filed June 5, 2012; Structuring is the offense of breaking a financial transaction into
multiple, smaller transactions for the purpose of evading reporting requirements.
58
   D. Ariz. Plea Agr. filed Dec. 6, 2012
32         October 1, 2012 – March 31, 2013
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


In the plea agreement, Aronov admitted that in April 2012, an IRS revenue agent was
conducting an audit of Aronov's income tax returns for 2009 and 2010. During the course
of the audit, the revenue agent determined that Aronov owed approximately $34,000 in
additional unpaid taxes and penalties based in part on unreported income and debt
cancellation. Aronov offered the revenue agent $5,000 cash for the revenue agent to
adjust the audit report to show zero tax liability.59

Aronov also admitted that, on October 15, 2010, he entered a bank and stated that he
wanted to deposit $40,000 cash but did not want the transaction reported to the
Government. He asked the banker for ways to avoid the reporting requirements and then
deposited the cash at a different bank in a series of transactions under $10,000.60

Aronov was sentenced to three-years probation and ordered to pay a $5,000 fine.61

Identity Theft Initiative
When the crime of identity theft occurs within TIGTA’s jurisdiction, OI initiates an
investigation. Not only does identity theft have a negative impact on the economy, but the
damage it causes to its victims can be personally, professionally, and financially
devastating. When individuals steal identities and file fraudulent tax returns to obtain
refunds before the legitimate taxpayers file, the crime is simple tax fraud and falls within
the programmatic responsibility of IRS Criminal Investigation (CI). There are, however,
other variations of tax-related identity theft that fall within TIGTA’s jurisdiction and have a
significant impact on taxpayers.

TIGTA focuses its limited investigative resources on identity theft cases that include:

        IRS employee involvement;
        Theft or misuse of client information by tax preparers; and
        Impersonation of the IRS through phishing schemes62 or other means.




59
   Id.
60
   Id.
61
   D. Ariz. Judgment filed Feb. 20, 2013.
62
   Phishing is an attempt by an individual or group to solicit personal and financial information from
unsuspecting users in an electronic communication by masquerading as trustworthy entities such as
government agencies, popular social web sites, auction sites, online payment processors, or IT
administrators.
                                                               October 1, 2012 – March 31, 2013          33
            TIGTA SEMIANNUAL REPORT TO CONGRESS


In its efforts to aggressively combat identity theft, OI is using its investigative resources
to: 1) actively seek out and participate in Federal, State, and local identity theft task
forces; 2) identify IRS employees who may be using taxpayer information to engage in
identity theft; 3) respond to allegations that IRS employees and tax preparers may be
involved in identity theft activity; and 4) identify and locate e-mail scammers and IRS
impersonators engaged in identity theft.

     “Incidents of identity theft affecting tax administration have continued to rise since Calendar Year
     2011, when the IRS identified more than one million incidents of identity theft that impacted our
     Nation’s tax system. As of October 27, 2012, the IRS identified almost 1.2 million incidents during
     2012. This figure includes approximately 186,000 incidents in which taxpayers contacted the IRS
     alleging that they were victims of identity theft, as well as more than one million incidents where
     the IRS detected the occurrence of potential identity theft.”

                                                                                                   J. Russell George
                                                                   Treasury Inspector General for Tax Administration
                                                                “Identity Theft and Tax Fraud: Growing Problems for
                                                          the Internal Revenue Service” testimony on Nov. 29, 2012



Protecting Sensitive Taxpayer Information

Electronic tax records of all taxpayers are stored in computer systems maintained by the
IRS. Loss, theft, or misuse of this information can result in identity theft or other fraud. OI
works to ensure the privacy and security of taxpayer information by detecting and
investigating IRS employees who make or attempt to make unauthorized accesses to
taxpayer information as well as individuals who attempt to gain unauthorized access to
IRS information systems and networks.

To ensure that sensitive taxpayer information is protected, OI evaluates IRS computer
applications that process or contain taxpayer information. OI also conducts proactive
initiatives to detect unauthorized access to taxpayer data using a variety of tools. During
this reporting period, OI initiated 112 unauthorized access investigations.

Combating Phishing Schemes

Criminals involved in identity theft schemes use creative ways to obtain victims’
personally identifiable information, or “PII,” to commit fraud. Phishing, which usually
involves the mass solicitation of potential victims through e-mail or other forms of
electronic communication, is a widespread method used by criminals to steal another’s
identity.

Scammers often send e-mails claiming to be from the IRS. These phishing e-mails
contain a “hook” that induces the victim to take some sort of overt action. The e-mail
scammers may lead the victim to believe that they are due a tax refund from the IRS or
that they have won a lottery, but that they must first pay a “tax” before they can receive
the money. The victim is instructed to provide their PII and financial information such as


34         October 1, 2012 – March 31, 2013
                   TIGTA SEMIANNUAL REPORT TO CONGRESS


bank account numbers or credit card numbers to the scammer before the refund or lottery
winnings can be released.

Some phishing schemes are designed to install malicious code, or “malware,” on a
victim’s computer. The malware is installed when the victim opens an attachment to the
phishing e-mail or clicks on a hyperlink in the e-mail. Once installed, the malware can
steal information from the victim’s computer or the victim’s computer can be used in a
network of compromised computers which are often used to perpetrate other illicit activity.

Phishing schemes may range in their technical complexity; however, most share a
common trait: They involve computers located outside the U.S. While this poses a
significant investigative challenge, OI has been successful in working with law
enforcement in foreign countries to identify the perpetrators and obtain prosecutions.




                                                    October 1, 2012 – March 31, 2013     35
     TIGTA SEMIANNUAL REPORT TO CONGRESS




36   October 1, 2012 – March 31, 2013
                   TIGTA SEMIANNUAL REPORT TO CONGRESS



         Advancing Oversight of America’s Tax
                      System
      IGTA’s Office of Inspections and Evaluations (I&E) provides responsive, timely,


T     and cost-effective inspections and evaluations of challenging areas within the IRS,
      providing TIGTA with additional flexibility and capability to produce value-added
      products and services to improve tax administration. I&E’s work is not a
      substitute for audits and investigations; in fact, its findings may result in
subsequent audits and/or investigations.

The Office has two primary product lines: inspections and evaluations.

Inspections are intended to:

        Provide factual and analytical information;
        Monitor compliance;
        Measure performance;
        Assess the effectiveness and efficiency of programs and operations;
        Share best practices; and
        Inquire into allegations of waste, fraud, abuse, and mismanagement.

Evaluations are intended to:

        Provide in-depth reviews of specific management issues, policies, or programs;
        Address Governmentwide or multi-agency issues; and
        Develop recommendations to streamline operations, enhance data quality, and
         minimize inefficient and ineffective procedures.

The following reports highlight some of the significant activities in which I&E has engaged
during this six-month reporting period:

Inspection of Internal Revenue Service Controls to Achieve Its Goal of Reducing
Time Charges for Union Activities

The results of this inspection determined whether the IRS has adequate controls in place
to achieve its goal to reduce overall time charges associated with employee union
activities.

According to the 2009 National Agreement II (Agreement), the IRS and the National
Treasury Employees Union (NTEU or Union) committed to reducing the amount of




                                                     October 1, 2012 – March 31, 2013    37
           TIGTA SEMIANNUAL REPORT TO CONGRESS


official63 and bank64 time used for representational activities by an overall five percent
during each year of the Agreement. We found that IRS and NTEU efforts resulted in
reduced Union time charges overall; however, the goal of a five percent reduction was not
achieved.

TIGTA determined that several shortfalls limited the IRS’s and the NTEU’s ability to
achieve their overall five percent reduction. We determined that the lack of incentives
and targeted reduction goals for official time and the methodology for determining annual
bank time allocations limited the parties’ ability to reach the stated reduction goal.
Furthermore, we determined that the IRS’s general time codes for official and bank time
use, which respectively accounted for 55 percent and 86 percent of time used in FY 2011,
did not provide enough detail to adequately account for Union activities. Also, we found
that 79 Local Official Time Utilization Plans had not been revised since the
implementation of the Agreement, and that the IRS and the NTEU did not clarify
justifications and methodologies used for determining appointments of full-time stewards,
who accounted for approximately 52 percent of all Union time charges.
Report Reference No. 2013-IE-R001

Review of Criminal Investigation’s Relocation Incentives and Post of Duty Neutral
Program

This project was initiated to determine whether decisions made to relocate CI executives
and senior managers, or to reassign their posts of duty to Post of Duty neutral, complied
with travel policies, procedures, and regulations.

TIGTA found that improvements are needed in CI’s use of relocation incentives and the
implementation of the Post of Duty Neutral Program. CI has encouraged its employees to
relocate to the National Headquarters office in Washington, D.C., to gain national
experience as part of its draft Special Agent Leadership Strategy. As a result, CI has
significantly increased the amount of permanent change-of-station and temporary
change-of-station relocation incentives granted to its employees by almost $1.2 million
(407 percent) over five years (2007 through 2011).

TIGTA also found the relocation incentive requests reviewed adequately documented the
special or unique competencies required for the position and demonstrated how the
individual was qualified for the position. However, TIGTA believes that the decision to
pay the incentive would be stronger if the documentation included a list of applicants who
applied for the position and information related to their qualifications.

Furthermore, TIGTA found two cases where the certification managers did not
recommend approval for two relocation incentive requests. However, the secondary
63
   Official time is duty time granted when stewards are participating in meetings or other communications
with IRS management. Official time may also be prescribed for travel to and from such meetings.
64
   Bank time is duty time granted in order for stewards to confer with employees, prepare grievances,
prepare for arbitration, or prepare a reply to a notice of proposed disciplinary, adverse, or unacceptable
performance action. Bank time is authorized for activities not conducted in the presence of management.
38         October 1, 2012 – March 31, 2013
                   TIGTA SEMIANNUAL REPORT TO CONGRESS


reviewer approved the request without documenting the basis for disregarding the
recommendations made by the certification managers. Additionally, TIGTA found that
two requests were not properly approved.

Lastly, TIGTA identified significant weaknesses within the CI Post of Duty Neutral
Program. CI has not finalized the policy, identified the employee requirements to
participate in the program, or defined the metrics to evaluate the program’s effectiveness.
Additionally, CI has not documented the methodology used for the reduced per diem
rates, and the policy is not consistently applied among program participants.

TIGTA recommended that the Chief, CI, ensure that adequate documentation is prepared
and maintained to support management’s decision to approve or deny each relocation
incentive, evaluate the effectiveness of temporary change-of-station and permanent
change-of-station assignments, and revise and finalize the Special Agent Leadership
Strategy.

TIGTA also recommended that the Chief ensure that the policy for the Post of Duty
Neutral Program is revised and finalized. The Chief should also determine whether the
Program is cost effective.

The IRS agreed with the recommendations. The Chief, CI, plans to assess the
effectiveness of the temporary change-of-station and permanent change-of-station
assignments, and to review and revise the relocation program’s mobility policies.
Additionally, the Chief plans to require that documentation to support the relocation
incentive includes the pool of candidates that applied for the position, as applicable. The
Chief also plans to determine whether the CI Post of Duty Neutral Program is cost
effective and viable. If the Post of Duty Neutral Program is deemed viable, the program’s
policies and procedures are expected to be enhanced.
Report Reference No. 2013-IE-R002




                                                     October 1, 2012 – March 31, 2013    39
     TIGTA SEMIANNUAL REPORT TO CONGRESS




40   October 1, 2012 – March 31, 2013
                      TIGTA SEMIANNUAL REPORT TO CONGRESS



                TIGTA’s International Programs
TIGTA is committed to providing comprehensive oversight of IRS international programs
and operations by developing a strategy of international audit, inspection, and law
enforcement liaison and outreach. This will enhance TIGTA’s capacity to execute its
oversight model in the international environment.

The United States (U.S.) taxes U.S. individuals and businesses on their world-wide
income and taxes foreign persons on their U.S. source income. The international tax
administration can be divided into four general areas:

         U.S. business cross-border;
         Foreign business in the U.S.;
         Individual person cross-border; and
         Foreign person in the U.S.

The tax law for cross-border transactions and investments can be highly complex and
specialized. For both businesses and individuals, partnerships, and tiered structures are
used for both business purposes and to obscure the beneficial owner of the assets.

The President, the Secretary of the Treasury, and the IRS Commissioner have placed an
emphasis on international tax compliance. Also, business tax reform discussions include
potential substantive changes to intercompany transfer pricing policy. In addition, the
Foreign Account Tax Compliance Act (FACTA)65 is being implemented by the IRS to help
prevent U.S. taxpayers from hiding assets offshore.

The International Tax Gap

The IRS defines the Tax Gap as the difference between the estimated amount taxpayers
owe and the amount they voluntarily and timely pay for a tax year. The International Tax
Gap – the amount the U.S. loses each year that is attributable to the abuse of offshore tax
havens – is estimated to be approximately $100 billion.66

The IRS has embraced a Service-wide approach to international tax administration that
seeks to address more effectively the increased globalization of both individuals and
businesses. This strategy is designed to improve voluntary compliance with international
tax provisions and to reduce the Tax Gap attributable to international transactions.

TIGTA is in the process of evaluating whether the IRS has comprehensive measures of
the Tax Gap. This evaluation includes whether the IRS methods include estimates for

65
  Pub. L. No. 111-147, Subtitle A, 124 Stat 71, 96-116 (2010) (codified in scattered sections of 26 U.S.C.).
66
  U.S. Senate Committee on Homeland Security and Government Affairs, Permanent Subcommittee on
Investigations, 110th Cong., Report on Tax Haven Banks and U.S. Tax Compliance (Staff Report 2008).,
Washington, D.C., July 17, 2008, http://hsgac.senate.gov/public/_files/071708PSIReport.pdf.
                                                               October 1, 2012 – March 31, 2013           41
          TIGTA SEMIANNUAL REPORT TO CONGRESS


offshore tax evasion by individuals and separate estimates for corporate noncompliance
in global transactions.

International Visitors

TIGTA’s international strategy includes engaging
with foreign tax authorities in the sharing of
mutually beneficial strategies for providing
oversight of the IRS and foreign national revenue
collection agencies.

During this six-month reporting period, TIGTA was
very pleased to host a delegation from Vietnam.
International visits with delegations from other
countries, administered in association with the IRS
International Visitors Program, serve to build
working relationships and foster increased
cooperation in the arena of international tax administration.

Vietnam

In October, 2012, TIGTA hosted a ten-member delegation led by Mr. Nguyen Kim Lien,
the Chief Inspector of Vietnam’s Ministry of Finance. The delegation met with
representatives from OA to achieve an understanding of how the Inspector General
system works, and how internal audits are conducted within the Department of the
Treasury. The audit-centric discussion provided the visiting delegation a better
understanding of TIGTA’s role in our Nation’s tax administration and its relationship with
the IRS.

TIGTA includes international tax administration as part of its annual audit-planning
process. At the end of FY 2012, TIGTA was finishing several reviews. These include a
review of the Foreign Earned Income Exclusion where TIGTA is determining the impact of
this exclusion on tax administration. TIGTA is also looking at the IRS’s processing of
Foreign Currency Payments to determine if taxpayer payments collected in foreign
currencies are being effectively and efficiently processed. In addition, TIGTA’s review of
Foreign Corporations Filing Compliance will determine whether the IRS’s automated
penalty process has achieved its goal of encouraging filing compliance for entities with
Forms 5471, Information Returns of U.S. Person With Respect to Certain Foreign
Corporations, reporting requirements.




42        October 1, 2012 – March 31, 2013
                      TIGTA SEMIANNUAL REPORT TO CONGRESS



 American Recovery and Reinvestment Act of
                   2009
The American Recovery and Reinvestment Act of 2009 (Recovery Act)67 was enacted on
February 17, 2009. The Recovery Act presented significant challenges to all Federal
agencies as they moved to implement provisions quickly while attempting to minimize risk
and meet increased standards for transparency and accountability. With its 56 tax
provisions (20 related to individual taxpayers and 36 related to business taxpayers), the
Recovery Act poses significant challenges to the IRS as the Nation’s tax collection
agency and administrator of the tax laws.68

TIGTA has issued numerous reports related to the IRS’s efforts to implement Recovery
Act tax provisions. For this six-month reporting period, TIGTA issued the following
significant reports:

Review of the IRS’s Recovery Act Fund Expenditures During the Period April 2,
2010 Through September 30, 2010

This report presented the results of our inspection to evaluate the IRS’s compliance with
the Office of Management and Budget’s (OMB)69 implementing guidance70 for the
Recovery Act. This is the third in a series of inspections regarding compliance with OMB
Recovery Act guidance.

The overall objective of this inspection was to verify the accuracy and timeliness of the
payment of the IRS’s Recovery Act procurement invoices and the timeliness and
transparency of reporting these expenditures for the period of April 1, 2010 through
September 30, 2010.

Our review of the IRS Recovery Act-related expenditures from April 1, 2010 through
September 30, 2010 showed that the IRS was substantially in compliance with OMB’s
Recovery Act implementation guidance. The IRS purchased Recovery Act-related goods
and services totaling more than $27 million during the period and obtained 92.2 percent of
the more than $225,000 in funds available for discounts on Recovery Act-related


67
   Pub. L. No. 111-5, 123 Stat. 115 (2009).
68
   American Recovery and Reinvestment Tax Act of 2009 (Recovery Tax Act), Pub. L. No. 111-5, § 1001,
123 Stat 115, *306, subsequently amended by the Tax Relief Unemployment Insurance Reauthorization
and Job Creation Act of 2010, Pub. L. No. 111-312, 124 Stat. 3296.
69
   OMB has primary responsibility for developing Governmentwide rules and procedures to ensure that
funds are awarded and distributed in a prompt and fair manner, that the use of funds is transparent to the
public, and that steps are taken to mitigate waste, fraud, and abuse.
70
   Office of Mgmt. & Budget, Exec. Office of the President, OMB M-09-10, Initial Implementing Guidance for
the American Recovery and Reinvestment Act of 2009 (2009); M-09-15, Updated Implementing Guidance
for the American Recovery Reinvestment Act of 2009 ( 2009); and M-10-34, Updated Guidance on the
American Recovery and Reinvestment Act ( 2010).
                                                             October 1, 2012 – March 31, 2013           43
           TIGTA SEMIANNUAL REPORT TO CONGRESS


procurements. For these expenditures, the IRS executed adequate internal controls to
ensure accurate and timely reporting.

However, we observed that 11 weeks of the Financial and Activity Reports for the IRS
Recovery Act expenditures, totaling approximately $7.4 million, were not posted on
http://www.recovery.gov (Recovery.gov). As a result, one of the major goals of the
Recovery Act, to establish unprecedented transparency, was not fully achieved because
the public was not able to timely see the complete IRS Recovery Act expenditure data on
the website. These omissions were corrected on September 6, 2012, after our discussion
with the IRS about its controls and processes for Recovery Act expenditures. Also, the
IRS made two delayed invoice payments, which resulted in additional payments of more
than $18,000.71 IRS management agreed with the observations in our report.
Reference No. 2013-IE-R003

Assessment of the IRS’s Interpretation of § 1302 of the Recovery Act: Qualifying
Advanced Energy Project Credit

Section 1302 of the Recovery Act established the Qualifying Advanced Energy Project
Credit (Advanced Energy Credit).72 The Advanced Energy Credit was intended to
encourage development of a manufacturing base to support renewable energy industries.
The Recovery Act provided for $2.3 billion in Advanced Energy Credits to be allocated to
manufacturers for qualified projects.

TIGTA found inconsistencies between the issued guidance and the law. The
inconsistencies between the IRS Notice 2009-72 and I.R.C. § 48C criteria resulted from
the IRS’s efforts to: 1) simplify program guidance so it would be more easily understood
by manufacturers; and 2) ensure that the Credits were disbursed equitably among
qualified applicants. However, the inconsistencies did not affect the IRS’s compliance
with the I.R.C. requirements when awarding the Advanced Energy Credit.

In addition, the IRS cited its rule-making authority and the general language of the law as
its basis to use additional selection criteria. Based on the lack of clarity in the law, the
IRS used its authority under Title 5 of the United States Code to interpret the law to mean
that the IRS must consider all of the criteria contained in the law, but that it could include
additional criteria as it deemed appropriate. The IRS, in conjunction with the Department
of Energy, determined that the application of Program Policy Factors was appropriate,
and set forth the rules in IRS Notice 2009-72.

The Department of Energy noted that the Program Policy Factors were used to ensure
that the $2.3 billion in awarded Credits was disbursed across a range of project types,
sizes, and locations among qualified applicants. The use of the Program Policy Factors
affected which qualified projects that the Department of Energy recommended to the IRS.

71
   On one invoice payment, the IRS did not take $17,583 of the total discount offered by the contractor due
to delay in payment. On another invoice, an overpayment of $1,159 was incurred due to late payment.
72
   Pub. L. No. 111-5, § 1302,123 Stat 115, 345.
44         October 1, 2012 – March 31, 2013
                  TIGTA SEMIANNUAL REPORT TO CONGRESS


All Advanced Energy Credit awards made by the IRS were consistent with Department of
Energy rankings and recommendations. The IRS’s involvement in the ranking and review
process was limited to verifying that manufacturers timely filed a complete application for
certification with the IRS for each recommended energy project. As a result, TIGTA made
no recommendations in this report.
Reference No. 2013-40-029




                                                    October 1, 2012 – March 31, 2013    45
     TIGTA SEMIANNUAL REPORT TO CONGRESS




                              Divider Page




46   October 1, 2012 – March 31, 2013
                   TIGTA SEMIANNUAL REPORT TO CONGRESS



      An Organization That Values Its People
Employee Viewpoint Survey and Best Places to Work Ranking
The Partnership for Public Service uses data from OPM’s 2012 Federal Employee
Viewpoint Survey (FEVS) to rank agencies and their subcomponents according to a “Best
Places to Work” index score. Agencies and subcomponents are not only measured on
overall employee satisfaction but are assessed in 10 workplace categories. Category
examples include effective leadership, employee skills/mission match, pay, teamwork,
and work/life balance. TIGTA remains at the forefront as one of the “Best Places to
Work” in the Federal Government. In 2012, TIGTA ranked 13th out of 292 agency
subcomponents, up from 16th of 240 agency subcomponents in 2011. It is noteworthy
that TIGTA ranked the highest of all Treasury bureaus for FY 2012.
Employees are TIGTA’s most valuable resource, and each employee contributes to the
recognition of TIGTA as one of the best places to work. TIGTA is encouraged by its
participation rate on OPM’s FEVS (70 percent of eligible TIGTA staff), which exceeds the
Governmentwide response rate by 24 percent. Also, TIGTA’s high participation rate
reveals its employees’ understanding and focus on the organization’s mission, resulting in
significant contributions to, and impact on, improving the Nation’s tax administration
system. Employee feedback through the FEVS process reflects employees’ belief that
providing feedback is important, and that employee input can bring change and
organizational enhancements. TIGTA executives are addressing the results, evaluating
the organization’s strengths, and exploring ways to improve organizational
communications and performance.
Part of TIGTA’s quest in making continual organizational improvements includes its
comprehensive FY 2013 FEVS Action Plan. This Plan focuses on the overall analysis of
the FEVS results and addresses three systems defined in the Human Capital Assessment
and Accountability Framework. Specifically:

                Results Oriented Performance Culture;
                Talent Management; and
                Leadership and Knowledge Management.

TIGTA’s Plan includes corporate goals in addition to function-specific goals for continuing
to improve organizational performance and communications.
Awards and Special Achievements: TIGTA Recognized for Small Business
Acquisition Achievements
Jeff Stephenson, Assistant Director of the Office of Mission Support’s Procurement
Services Directorate, was named the Department of the Treasury 2012 “Contracting
Officer Representative of the Year.” This esteemed honor is awarded to the Treasury
Contracting Officer Representative who has demonstrated exceptional commitment or


                                                     October 1, 2012 – March 31, 2013    47
          TIGTA SEMIANNUAL REPORT TO CONGRESS


contributions leading to the overall success of the small business effort by procuring
goods and services from the small business community during the previous fiscal year.

Selection criteria for this distinguished honor include:

                    Innovation of New Contract Opportunities
                    Advanced Acquisition Planning Process
                    Market Research
                    Increased Small Business Participation
                    Participation in Outreach Activities

FY 2012 was the second consecutive landmark year for small business contracting
across the Department of the Treasury. The overall Treasury small business contracting
percentage landed well above the stretch goal of 35 percent and the accomplishments in
all four socioeconomic categories exceeded the respective goals, as well. TIGTA
exceeded all of its small business goals for the second year in a row and surpassed its
Fiscal Year 2011 small business performance in all but one category. The Department of
the Treasury recognized all individual and bureau achievements in small business
acquisition at an awards ceremony on December 18, 2012. Additionally, TIGTA received
a Gold Medal Award for its small business contracting successes.




48       October 1, 2012 – March 31, 2013
                    TIGTA SEMIANNUAL REPORT TO CONGRESS



                     Congressional Testimony
During this reporting period, Inspector General J. Russell George testified before
Congress on two occasions. The following are summaries of his testimony.

On November 29, 2012, Mr. George testified before the House Committee on Oversight
and Government Reform, Subcommittee on Government Organization, Efficiency, and
Financial Management on “Identity Theft and Tax Fraud: Growing Problems for the
Internal Revenue Service, Part IV.” Mr. George stated that the total impact of identity
theft on tax administration is significantly greater than the amount the IRS detects and
prevents, and the IRS is not providing effective assistance to taxpayers who report that
they have been victims of identity theft.

Mr. George’s testimony focused on the results of two TIGTA audit reports73 on identity
theft as well as the IRS’s progress on detecting and resolving identity theft issues related
to tax administration.

Despite the increased number of identity theft incidents the IRS has found, the IRS is still
challenged in detecting and preventing them. Using the characteristics of confirmed
identity theft, TIGTA analyzed TY 2010 tax returns processed during the 2011 Filing
Season and identified 1.5 million undetected tax returns with potentially fraudulent tax
refunds totaling in excess of $5 billion. If not addressed, TIGTA estimates that the IRS
could issue approximately $21 billion in fraudulent tax refunds resulting from identity theft
over the next five years.

Most identity theft cases are complex and can present considerable challenges
throughout the resolution process. For example, it can be difficult to discern the
legitimate taxpayer or whether the case is actually a case of identity theft. On occasion, a
taxpayer will transpose the digits in his or her Social Security Number (SSN), but will not
respond to an IRS request for information to resolve the case. As a result, the IRS may
not be able to identify the legitimate taxpayer. With other cases we have reviewed,
taxpayers claimed to be victims of identity theft after the IRS had questioned deductions
or credits or proposed examination adjustments. There have been instances in which the
SSA has issued the same SSN to different taxpayers.

In addition, resources have not been sufficient to work identity theft cases dealing with
refund fraud and continue to be a concern. IRS employees who work the majority of
identity theft cases are telephone assistors who also respond to taxpayers’ calls to the
IRS’s toll-free telephone lines. TIGTA is concerned that demanding telephone schedules
and a large identity theft case inventory make it difficult for assistors to prioritize identity
theft cases. Nevertheless, because of limited resources and the high taxpayer demand

73
   TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund
Fraud Do Not Receive Quality Customer Service (May 2012); TIGTA, Ref. No. 2012-42-080, There Are
Billions of Dollars in Undetected Tax Refund Fraud Resulting From Identity Theft (July 2012).
                                                          October 1, 2012 – March 31, 2013          49
           TIGTA SEMIANNUAL REPORT TO CONGRESS


for telephone assistance, assistors who work identity theft cases also work the telephones
on Mondays (and any Tuesday following a Monday holiday).

The management information system that telephone assistors use to control and work
cases can add to the taxpayer’s burden. For instance, one victim may have multiple
cases opened and multiple assistors working his or her identity theft issue. A review of 17
taxpayers’ identity theft cases showed that 58 different cases had been opened and
multiple assistors worked their cases. Victims become further frustrated when they are
asked numerous times to prove their identities, even though they have previously
followed IRS instructions and sent in Identity Theft Affidavits and copies of identification
with their tax returns. TIGTA also found that the IRS sends the victims duplicate letters at
different times, wasting agency resources and possibly confusing the victims. Neither
letter advises when the taxpayer should expect to receive his or her tax refund.

The IRS has begun implementing new procedures. For example, the IRS reorganized to
establish an Identity Theft Program Specialized Group within each of the business units
and/or functions where employees are assigned specifically to work the identity theft
portion of the case. It has also revised processes to shorten the time it takes the IRS to
work identity theft cases and has refined codes to better detect and track identity theft
workloads. The IRS is also reviewing its suite of identity theft letters to determine if the
information contained therein is accurate and applicable to the taxpayer’s identity theft
circumstance.

Although the IRS is continuing to make changes to its processes to increase its ability to
detect, prevent, and track fraudulent tax returns and to improve assistance to victims of
identity theft, much work remains. As such, TIGTA is currently conducting two follow-up
reviews to measure the IRS’s progress in these areas.74

On March 5, 2013, Mr. George testified before the House Committee on Appropriations,
Subcommittee on Financial Services and General Government on its “Oversight Hearing -
Department of Treasury.” Mr. George’s testimony highlighted TIGTA’s recent work
related to the most significant challenges currently facing the IRS, as well as on
opportunities for program efficiencies and cost savings within the IRS.

A serious challenge confronting the IRS is the Tax Gap, which is defined as the difference
between the estimated amount taxpayers owe and the amount they voluntarily and timely
pay for a Tax Year. The most recent gross Tax Gap estimate developed by the IRS was
$450 billion for TY 2006. It is important to note that because of the methods that are
used, a significant portion of the Tax Gap is inferred and/or not observed.

The IRS Whistleblower Program plays an important role in reducing the Tax Gap and
maintaining the integrity of a voluntary tax compliance system. However, TIGTA reported
that the Program continued to have internal control weaknesses on the processing of

74
  TIGTA, Audit No. 201240041, Effectiveness of Assistance Provided to Victims of Identity Theft (Follow-
Up), report planned for June 2013.
50        October 1, 2012 – March 31, 2013
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


whistleblower claims. For example, information captured from multiple systems and
entered into a single inventory control system was potentially inaccurate, and the quality
review process for the new inventory system was not sufficient to ensure that claims were
accurately controlled. Additionally, TIGTA determined that timeliness standards for
processing claims were insufficient. Inadequate oversight of the Whistleblower Program
hampers the IRS’s ability to timely respond to tax noncompliance issues.75

Implementing the Affordable Care Act (ACA) is another major challenge facing the IRS.
The ACA provisions provide incentives and tax breaks to individuals and small
businesses to offset health care expenses. They also impose penalties, administered
through the tax code, for individuals and businesses that do not obtain health care
coverage for themselves or their employees. Revenue provisions contained in the
legislation are designed to generate $438 billion over 10 years76 to help pay for the
overall cost of health care reform.

In June 2012, TIGTA reported that appropriate plans had been developed to implement
tax-related provisions of the ACA using well-established methods for implementing tax
legislation.77 The IRS projected its FYs 2012 and 2013 ACA staffing needs to be 1,278
full-time equivalent78 (FTE) employees and 859 FTEs, respectively. The IRS, however,
has not projected staffing needs beyond FY 2013.

The IRS also faces challenges in the proper administration of refundable tax credits.79
The most significant refundable credit is the Earned Income Tax Credit (EITC). The EITC
remains the largest refundable credit based on the total claims paid, and it continues to
be vulnerable to a high rate of noncompliance, including incorrect or erroneous claims
caused by taxpayer error or resulting from fraud. TIGTA continues to report that the IRS
does not have effective processes to ensure that claimants qualify for these credits at the
time tax returns are processed and prior to issuance of fraudulent tax refunds.

The Additional Child Tax Credit (ACTC) is also susceptible to improper claims. However,
the IRS did not identify the ACTC as a high-risk program under the Improper Payments
Elimination and Recovery Act of 2010. Agencies are not required to take any further
action to assess or quantify improper payments if a high risk for improper payments does

75
   TIGTA, Ref. No. 2012-30-045, Improved Oversight Is Needed to Effectively Process Whistleblower
Claims (Apr. 2012).
76
   Joint Committee on Taxation, JCX-17-10, Estimated Revenue Effects of the Amendment in the Nature of
a Substitute to H.R. 4872, the “Reconciliation Act of 2010,” as Amended, in Combination With the Revenue
Effects of H.R. 3590, the “Patient Protection and Affordable Care Act (‘PPACA’),” as Passed by the Senate
and Scheduled for Consideration by the House Committee on Rules on March 20, 2010 (March 20, 2010).
77
   TIGTA, Ref. No. 2012-43-064, Affordable Care Act: Planning Efforts for the Tax Provisions of the Patient
Protection and Affordable Care Act Appear Adequate; However, the Resource Estimation Process Needs
Improvement (June 2012).
78
   A measure of labor hours in which one full-time equivalent (FTE) is equal to eight hours multiplied by the
number of compensable days in a particular fiscal year.
79
   A refundable tax credit is a tax credit that is treated as a payment and can be refunded to the taxpayer.
Refundable credits can create a Federal tax refund that is larger than the amount a person actually paid in
taxes during the year.
                                                               October 1, 2012 – March 31, 2013            51
          TIGTA SEMIANNUAL REPORT TO CONGRESS


not exist. As a result, the IRS and the Department of the Treasury are not required to
quantify and report on ACTC improper payments. Nevertheless, TIGTA found that
taxpayers repeatedly claimed erroneous ACTCs after their claims were disallowed the
previous year.80 The IRS could have saved more than $108 million by reviewing claims
made by taxpayers who were previously disallowed the credit.

Providing effective taxpayer services is also a significant challenge facing the IRS. As
demand for taxpayer services continues to increase, resources have decreased, thereby
affecting the quality of customer service that the IRS is able to provide. A reduction in
funding for toll-free telephone and correspondence services resulted in a Level of Service
for FY 2012 of 67 percent. From the 2007 to the 2012 Filing Season, the IRS’s ability to
process taxpayer correspondence in a timely manner also declined.

The IRS faces human capital issues as well. In addition to a workforce that shrunk by
approximately 10,000 employees between the end of FY 2010 and the end of FY 2012,
IRS data show that more than one-third of all executives and almost 20 percent of
nonexecutive managers are currently eligible for retirement. Within five fiscal years,
nearly 70 percent of all IRS executives and nearly one-half of the IRS’s nonexecutive
managers are projected to be eligible for retirement. Ultimately, the IRS must provide
reasonable assurance that it has the right people in the right place at the right time to
provide taxpayers with top-quality service and to enforce the law with integrity and
fairness to all.

While the IRS has made progress to improve program effectiveness and reduce costs,
TIGTA has identified other opportunities for efficiencies and cost savings:

      The IRS was not always fully reimbursed for services it provides to other Federal
       Government agencies. Specifically, we identified more than $28 million in costs
       incurred by the IRS in FY 2011 that were not reimbursed. As a result, the IRS
       funded this work using its own operating budget, thereby reducing funds available
       for tax administration.81

      The IRS can reduce its office space needs by almost 1 million square feet,
       resulting in potential rental savings of over $100 million over five years, by
       establishing a policy requiring employees who telework to share workstations.82




80
   TIGTA, Ref. No. 2012-40-105, Expansion of Controls Over Refundable Credits Could Help Reduce the
Billions of Dollars of Improperly Paid Claims (Sep. 2012).
81
   TIGTA, Ref. No. 2012-10-076, The Full Costs of Work Performed on Reimbursable Agreements Are Not
Always Charged, Resulting in Reduced Funds Available for Tax Administration (July 2012).
82
   TIGTA, Ref. No. 2012-10-100, Significant Additional Real Estate Cost Savings Can be Achieved by
Implementing a Telework Workstation Sharing Strategy (Aug. 2012).
52        October 1, 2012 – March 31, 2013
                       TIGTA SEMIANNUAL REPORT TO CONGRESS



                          Audit Statistical Reports

                     Reports With Questioned Costs
 TIGTA issued one audit report with questioned costs during this semiannual reporting
 period.83 The phrase “questioned costs” means costs that are questioned because of:

         An alleged violation of a provision of a law, regulation, contract, or other requirement
          governing the expenditure of funds;
         A finding, at the time of the audit, that such cost is not supported by adequate
          documentation (an unsupported cost); or
         A finding that expenditure of funds for the intended purpose is unnecessary or
          unreasonable.

 The phrase “disallowed cost” means a questioned cost that management, in a
 management decision, has sustained or agreed should not be charged to the Government.

                                     Reports with Questioned Costs
                                                                      Questioned          Unsupported
              Report Category                       Number               Costs84              Costs
                                                                    (in thousands)       (in thousands)
1. Reports with no management decision at
   the beginning of the reporting period                9                 $71,201                  $33,302
2. Reports issued during the reporting period           1                   $328                        $0
3. Subtotals (Item 1 plus Item 2)                      10                 $71,529                  $33,302
4. Reports for which a management decision
                                         85
   was made during the reporting period
   a. Value of disallowed costs                         2                    $329                      $0
   b. Value of costs not disallowed                     2                 $32,377                  $32,374
5. Reports with no management decision at
   the end of the reporting period (Item 3
                 86
   minus Item 4)                                        7                 $38,822                    $928
6. Reports with no management decision
   within six months of issuance                        6                 $38,494                    $928




 83
    See Appendix II for identification of audit reports involved.
 84
    “Questioned costs” includes “unsupported costs.”
 85
    Includes one report in which the IRS allowed part of the questioned costs.
 86
    Difference due to rounding.
                                                                October 1, 2012 – March 31, 2013         53
                TIGTA SEMIANNUAL REPORT TO CONGRESS



  Reports With Recommendations That Funds
             Be Put to Better Use
 TIGTA issued one audit report during this semiannual reporting period with the
 recommendation that funds be put to better use.87 The phrase “recommendation that
 funds be put to better use” means funds could be used more efficiently if management
 took actions to implement and complete the recommendation, including:
            Reductions in outlays;
            Deobligations of funds from programs or operations;
            Costs not incurred by implementing recommended improvements related to
             operations;
            Avoidance of unnecessary expenditures noted in pre-award reviews of contract
             agreements;
            Prevention of erroneous payment of refundable credits; or
            Any other savings that are specifically identified.

 The phrase “management decision” means the evaluation by management of the findings
 and recommendations included in an audit report, and the issuance of a final decision
 concerning its response to such findings and recommendations, including actions
 deemed necessary.

                      Reports with Recommendations that Funds be Put to Better Use
                                                                                     Amount
                              Report Category                         Number
                                                                                 (in thousands)
1. Reports with no management decision at the beginning of the
   reporting period                                                     0                   $0
2. Reports issued during the reporting period                           1               $5,933
3. Subtotals (Item 1 plus Item 2)                                       1               $5,933
4. Reports for which a management decision was made during the
   reporting period
   a. Value of recommendations to which management agreed
           i. Based on proposed management action                       0                   $0
           ii. Based on proposed legislative action                     0                   $0
   b. Value of recommendations to which management did not agree        1              $5,933
5. Reports with no management decision at the end of the
   reporting period (Item 3 minus Item 4)                               0                   $0
6. Reports with no management decision within 6 months of issuance      0                   $0




 87
      See Appendix II for identification of audit reports involved.
 54             October 1, 2012 – March 31, 2013
                    TIGTA SEMIANNUAL REPORT TO CONGRESS



 Reports With Additional Quantifiable Impact
           on Tax Administration
In addition to questioned costs and funds put to better use, the Office of Audit has
identified measures that demonstrate the value of audit recommendations to tax
administration and business operations. These issues are of interest to executives at the
IRS and the Department of the Treasury, Members of Congress, and the taxpaying
public, and are expressed in quantifiable terms to provide further insight into the value
and potential impact of the Office of Audit’s products and services. Including this
information also promotes adherence to the intent and spirit of the Government
Performance and Results Act.

Definitions of these additional measures are:

Increased Revenue: Assessment or collection of additional taxes.
Revenue Protection: Proper denial of claims for refunds, including recommendations
that prevent erroneous refunds or efforts to defraud the tax system.
Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the
need for, frequency of, or time spent on communication, recordkeeping, preparation, or
costs to comply with tax laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights)
granted to taxpayers by law, regulation, or IRS policies and procedures. These rights
most commonly arise when filing tax returns, paying delinquent taxes, and examining the
accuracy of tax liabilities. The acceptance of claims for and issuance of refunds
(entitlements) are also included in this category, such as when taxpayers legitimately
assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account
information (privacy). Processes and programs that provide protection of tax
administration, account information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to
reduce cost while maintaining or improving the effectiveness of specific programs;
resources saved would be available for other IRS programs. Also, the value of internal
control weaknesses that resulted in an unrecoverable expenditure of funds with no
tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance,
and integrity of data, including the sources of data and the applications and processing
thereof, used by the organization to plan, monitor, and report on its financial and
operational activities. This measure will often be expressed as an absolute value, i.e.,
without regard to whether a number is positive or negative, of overstatements or
understatements of amounts recorded on the organization’s documents or systems.
                                                    October 1, 2012 – March 31, 2013     55
               TIGTA SEMIANNUAL REPORT TO CONGRESS


Protection of Resources: Safeguarding human and capital assets, used by or in the
custody of the organization, from inadvertent or malicious injury, theft, destruction, loss,
misuse, overpayment, or degradation.

The number of taxpayer accounts and dollar values shown in the following chart
was derived from analyses of historical data, and are thus considered potential
barometers of the impact of audit recommendations. Actual results will vary
depending on the timing and extent of management’s implementation of the
corresponding corrective actions, and the number of accounts or subsequent
business activities affected as of the dates of implementation. Also, a report may
have issues that affect more than one outcome measure category.

          Reports With Additional Quantifiable Impact on Tax Administration
                                                      Number of
                                    Number of                           Dollar Value
     Outcome Measure Category                          Taxpayer
                                     Reports88         Accounts
                                                                      (in thousands)

 Increased Revenue                                  1                     0       $29,000

 Revenue Protection                                 1                311,258    $1,111,652

 Reduction of Burden on Taxpayers                   1                     0          $315
 Taxpayer Rights and Entitlements
 at Risk                                            0                     0            $0

 Taxpayer Privacy and Security                      0                     0            $0

 Inefficient Use of Resources                       1                     0        $1,152
 Reliability of Management
 Information                                        2                     0    $87,966,531

 Protection of Resources                            0                     0            $0


Management did not agree with the outcome measures in the following reports:
          Revenue Protection: Reference Number 2013-40-009;
          Taxpayer Burden: Reference Number 2013-30-027; and
          Reliability of Management Information: Reference Number 2013-40-009.

The following reports contained quantifiable impacts other than the number of taxpayer
accounts and dollar value:
          Taxpayer Burden: Reference Number 2013-30-027; and
          Reliability of Management Information: Reference Number 2013-10-007.




88
     See Appendix II for identification of audit reports involved.
56            October 1, 2012 – March 31, 2013
                           TIGTA SEMIANNUAL REPORT TO CONGRESS



                  Investigations Statistical Reports
                                  Significant Investigative Achievements
                                         October 1, 2012 – March 31, 2013

         Complaints/Allegations Received by TIGTA
             Complaints against IRS Employees                                                 2,171
             Complaints against Non-Employees                                                 1,984
         Total Complaints/Allegations                                                         4,155

         Status of Complaints/Allegations Received by TIGTA
             Investigations Initiated                                                         1,192
                                        89
             In Process within TIGTA                                                            284
             Referred to IRS for Action                                                         398
             Referred to IRS for Information Only                                               873
                                             90
             Referred to a Non-IRS Entity                                                         2
             Closed with No Referral                                                          1,029
             Closed with All Actions Completed                                                  377
             Returned to IRS – No Action Taken                                                    0
         Total Complaints                                                                     4,155

         Investigations Opened and Closed
             Total Investigations Opened                                                      1,536
             Total Investigations Closed                                                      1,555

         Financial Accomplishments
             Embezzlement/Theft Funds Recovered                                              $9,523
             Court Ordered Fines, Penalties and Restitution                              $8,542,741
             Out-of-Court Settlements                                                            $0
         Total Financial Accomplishments                                                $8,552,264




89
     Complaints for which final determination had not been made at the end of the reporting period.
90
     A non-IRS entity includes other law enforcement entities or Federal agencies.
                                                                 October 1, 2012 – March 31, 2013     57
               TIGTA SEMIANNUAL REPORT TO CONGRESS




                                   Status of Closed Criminal Investigations
      Criminal Referral                                  Employee        Non-Employee          Total
          Referred – Accepted for Prosecution                27                32                 59
          Referred – Declined for Prosecution                309               175              484
          Referred – Pending Prosecutorial Decision          42                57                 99
                                    91                       378               264              642
      Total Criminal Referrals
      No Referral                                            389               502              891


                                          Criminal Dispositions92
      Criminal Disposition                               Employee         Non-Employee         Total

      Guilty                                                 26                 29              55

      Nolo Contendere (no contest)                            1                 1                 2

      Pre-trial Diversion                                     5                 2                 7
                             93                               2                 0                 2
      Deferred Prosecution
      Not Guilty                                              0                 0                 0
                   94                                         3                 2                 5
      Dismissed
      Total Criminal Dispositions                            37                 34              71


                        Administrative Dispositions on Closed Investigations95
      Administrative Disposition                                                               Total
      Removed or Terminated                                                                     261

      Suspended / Reduction in Grade                                                             71

      Resigned Prior to Adjudication                                                             65

      Oral or Written Reprimand / Admonishment                                                  108

      Clearance Letter                                                                           75

      Closed - No Action Taken                                                                   51
                              96                                                                444
      Non-Employee Actions
      Total Administrative Dispositions                                                         1075



91
   Criminal referrals include both Federal and State dispositions.
92
   Final criminal dispositions during the reporting period. This data may pertain to investigations referred
criminally in prior reporting periods and do not necessarily relate to the investigations referred criminally in
the Status of Closed Criminal Investigations table above.
93
   Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies
with certain conditions imposed by the court. Upon the defendant’s completion of the conditions, the court
dismisses the case. If the defendant fails to fully comply, the court reinstates prosecution of the charge.
94
   Court dismissed charges.
95
   Final administrative dispositions during the reporting period. This data may pertain to investigations
referred administratively in prior reporting periods and does not necessarily relate to the investigations
closed in the Investigations Opened and Closed table.
96
   Administrative actions taken by the IRS against non-IRS employees.
58         October 1, 2012 – March 31, 2013
                         TIGTA SEMIANNUAL REPORT TO CONGRESS



                                                Appendix I
              Statistical Reports - Other
     Audit Reports With Significant Unimplemented
                  Corrective Actions
 The Inspector General Act of 1978, as amended, requires identification of significant
 recommendations described in previous semiannual reports for which corrective actions have not
 been completed. The following list is based on information from the IRS Office of Management
 Control’s automated tracking system maintained by Treasury management officials.

                                                  Projected               Report Title and Recommendation Summary
              IRS Management
Reference                                        Completion               (F = Finding No., R = Recommendation No.,
               Challenge Area
 Number                              Issued         Date                                     P = Plan No.)
2007-10-082       Tax Exempt        May 2007                  Screening Tax-Exempt Organizations Filing Information Provides
                 Organizations                                Minimal Assurance That Potential Terrorist-Related Activities Are
                                                              Identified

                                                  06/15/13    F-1, R-1, P-1. Develop and implement a long-term strategy to
                                                              automate the matching of Forms 1023 and 990 information against a
                                                              consolidated terrorist watch list to initially identify potential terrorist
                                                              activities related to tax-exempt organizations.
2008-40-167     Tax Compliance       August                   The Withholding Compliance Program Is Improving Taxpayer
                   Initiatives        2008                    Compliance; However, Additional Enforcement Actions Are
                                                              Needed

                                                  12/15/13    F-2, R-1, P-1. Create a single data entry point for processing
                                                              Withholding Compliance Program cases and, provide lock-in-letter
                                                              issuance authority to other IRS functions.

2009-10-107        Improving        July 2009                 Controls Over Real Property Management Have Improved;
               Performance and                                However, Additional Efforts Are Needed to Address Planned
               Financial Data for                             Staffing Increases
              Program and Budget
                   Decisions                      06/15/13    F-1, R-2, P-1. Develop a comprehensive national policy regarding
                                                              workstation sharing for the flexiplace program and the ratio of flexiplace
                                                              employees to a shared workstation.
                                                  01/15/14    F-1, R-4, P-1. Develop procedures requiring that building level
                                                              projected space needs assessments include consideration of the
                                                              impact of workstation sharing, and are periodically reconciled in total to
                                                              agency-wide projected staffing levels.
2009-10-121        Improving        September                 The Taxpayer Advocate Service Should Reevaluate the Roles of
               Performance and        2009                    Its Staff and Improve the Administration of the Taxpayer
               Financial Data for                             Advocacy Panel
              Program and Budget
                   Decisions                      09/30/13    F-2, R-1, P-1. Reevaluate the roles of the staff assigned to assist the
                                                              Panel and establish guidance to ensure that the Panel functions
                                                              independently.




                                                                October 1, 2012 – March 31, 2013                              59
              TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                    Projected               Report Title and Recommendation Summary
                IRS Management
Reference                                           Completion               (F = Finding No., R = Recommendation No.,
                Challenge Area
 Number                                 Issued        Date                                    P = Plan No.)
2009-40-130    Processing Returns      September                 Repeated Efforts to Modernize Paper Tax Return Processing
                and Implementing         2009                    Have Been Unsuccessful; However, Actions Can Be Taken to
                Tax Law Changes                                  Increase Electronic Filing and Reduce Processing Costs
               During the Tax Filing
                     Season                          02/15/14    F-1, R-2, P-1. Refocus the Modernized Submission Processing
                                                                 Concept to include implementing a process to convert paper-filed tax
                                                                 returns prepared by individuals using a tax preparation software
                                                                 package into an electronic format.

2010-40-005     Providing Quality      December                  Individual Taxpayer Identification Numbers Are Being Issued
                Taxpayer Service         2009                    Without Sufficient Supporting Documentation

                                                     01/15/14    F-3, R-1, P-1. Ensure the data on the Real-Time System are accurate
                                                                 and validate the records that indicate an agent submitted the
                                                                 application to ensure that the Individual Taxpayer Identification Number
                                                                 Program has accurate and reliable data to oversee the Program.


2010-20-027    Taxpayer Protection     March 2010                Additional Security Is Needed For Access to the Registered User
                   and Rights                                    Portal

                                                     10/15/13    F-1, R-1, P-1. Require suitability checks on delegated users who
                                                                 e-file tax returns or access the e-Services incentive products and
                                                                 disable the principal consent feature on e-Services that allows a user to
                                                                 propagate his or her privileges to other users.
                                                     10/15/13    F-1, R-3, P-1. Enhance the e-file application on the Third Party Data
                                                                 Store to post the complete results of the Automated Suitability Analysis
                                                                 Program’s spouse tax compliance check.
                                                     09/15/14    F-1, R-5, P-1. Make passwords more difficult to guess by unauthorized
                                                                 individuals and decrease the use of Social Security numbers as
                                                                 usernames.
                                                     09/15/14    F-1, R-6, P-1. Implement a control to allow users to answer a series of
                                                                 challenge questions to unlock their accounts.

2010-40-045     Security of the IRS    March 2010                Telephone Authentication Practices Need Improvement to Better
                                                                 Prevent Unauthorized Disclosures

                                                     07/15/14    F-3, R-1, P-1. Incorporate available technology to authenticate callers
                                                                 in the queue as part of the development of the Authentication
                                                                 Retention Project.

2010-20-044    Modernization of the    May 2010                  Implementing Best Practices and Additional Controls Can
                      IRS                                        Improve Data Center Energy Efficiency and the Environmental
                                                                 and Energy Program

                                                     09/30/13    F-1, R-2, P-1. Ensure information technology equipment energy use is
                                                                 measured in order to determine the energy efficiency and savings from
                                                                 implementing energy improvements.
                                                     11/15/14    F-1, R-5, P-1. Ensure energy audits are performed at the data centers.




 60           October 1, 2012 – March 31, 2013
                           TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                   Projected               Report Title and Recommendation Summary
               IRS Management
Reference                                          Completion               (F = Finding No., R = Recommendation No.,
                Challenge Area
 Number                                 Issued       Date                                    P = Plan No.)
2010-30-061       Taxpayer             June 2010                Plans Exist to Engage the Tax Preparer Community in Reducing
              Compliance Initiatives                            the Tax Gap; However, Enhancements Are Needed

                                                    01/15/14    F-1, R-1, P-1. Update the existing IRS Strategic Plan and ensure
                                                                strategic plans have all of the information in the plans as required by
                                                                the Government Performance and Results Act of 1993 and Office of
                                                                Management and Budget Circular A-11 (Preparation, Submission, and
                                                                Execution of the Budget).
                                                    01/15/14    F-2, R-1, P-1. Define and include in the IRS Strategic Plan sufficient
                                                                measures that will provide data that can be used to monitor the IRS’s
                                                                efforts to achieve objectives aimed at strengthening partnerships with
                                                                tax practitioners and paid preparers to ensure effective tax
                                                                administration.

2010-20-084    Security of the IRS      August                  More Actions Are Needed to Correct the Security Roles and
                                         2010                   Responsibilities Portion of the Computer Security Material
                                                                Weakness

                                                    11/15/13    F-2, R-1, P-1. Develop an effective and repeatable method to identify
                                                                all IRS and contract employees performing in established information
                                                                technology security roles; include all IRS and contract employees
                                                                performing in information technology security roles in the population for
                                                                potential selection in the compliance assessments; and develop
                                                                adequate procedures to validate compliance with current security role-
                                                                related responsibilities through compliance assessments that
                                                                incorporate supporting evidence of proper execution of assigned
                                                                responsibilities.
2010-30-104       Taxpayer             September                Currency Report Data Can Be a Good Source for Audit Leads
              Compliance Initiatives     2010
                                                    06/15/13    F-1, R-1, P-1. Explore the feasibility of making greater use of Currency
                                                                Transaction Reports to pursue additional nonfilers and underreporters
                                                                for audit.

2010-40-121       Taxpayer             September                Improvements Are Needed to Verify Refunds to Nonresident
              Compliance Initiatives     2010                   Aliens Before the Refunds Are Sent Out of the United States

                                                    06/15/13    F-1, R-3, P-1. Determine the feasibility of requiring payers issuing
                                                                multiple Forms 1042-S to issue a single summary Form 1042-S at the
                                                                end of the calendar year to simplify reporting for the United States
                                                                business and third-party payer and decrease taxpayer burden.
                                                                F-2, R-1, P-1. Use the Foreign Country Codes on Form 1040NR to
                                                    06/30/13    ensure that the correct tax rate has been applied.
                                                                F-3, R-2, P-1. Clarify instructions on what constitutes United States
                                                    01/15/14    source income in United States Tax Guide for Aliens (Publication 519)
                                                                and Withholding of Tax on Nonresident Aliens and Foreign Entities
                                                                (Publication 515) in regard to income from multi-level marketing
                                                                companies.


2010-40-127       Taxpayer             September                It Will Take Years to Implement the Return Preparer Program and
              Compliance Initiatives     2010                   to Realize Its Impact

                                                    04/15/13    F-1, R-2, P-1. Establish controls to ensure Preparer Tax Identification
                                                                Number (PTIN) applicants with domestic addresses are United States
                                                                citizens or legal aliens, and the Social Security Number of the PTIN
                                                                applicant is not the Social Security Number of a deceased person.




                                                                  October 1, 2012 – March 31, 2013                          61
              TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                    Projected               Report Title and Recommendation Summary
                IRS Management
Reference                                           Completion               (F = Finding No., R = Recommendation No.,
                 Challenge Area
 Number                                  Issued       Date                                    P = Plan No.)
2011-40-014    Taxpayer Protection       January                 The Income Verification Express Services Program Needs
                   and Rights             2011                   Improvements to Better Protect Tax Return Information

                                                     04/15/13    F-1, R-3, P-1. Within one year of revising Form 13803, contact and
                                                                 obtain a completed Form 13803 from all current Income Verification
                                                                 Express Services Program participants.

2011-40-023       Erroneous and         February                 Reduction Targets and Strategies Have Not Been Established to
                Improper Payments        2011                    Prevent the Issuance of Billions of Dollars in Improper Earned
                   and Credits                                   Income Tax Credit Payments Each Year

                                                     09/15/13    F-1, R-1, P-1. Establish quantifiable reduction targets and strategies to
                                                                 meet those targets.
                                                     09/15/13    F-2, R-1, P-1. Use the National Research Program sample to estimate
                                                                 instances where the IRS incorrectly pays less in Earned Income Tax
                                                                 Credits than the taxpayer claims (underpayments).

2011-20-046     Security of the IRS     May 2011                 Access Controls for the Automated Insolvency System Need
                                                                 Improvement

                                                     05/15/15    F-1, R-1, P-1. Identify incompatible duties and implement policies to
                                                                 segregate those duties, issue a memorandum to program managers
                                                                 requiring them to adhere to the new policy when assigning duties and
                                                                 approving Automated Insolvency System access privileges, and
                                                                 designate a limited number of employees to perform the User
                                                                 Administrator duties.

2011-40-058      Providing Quality      July 2011                Taxpayers Do Not Always Receive Quality Responses When
                 Taxpayer Service                                Corresponding About Tax Issues

                                                     01/15/15    F-1, R-3, P-1. Complete the study of the interim letters to ensure that
                                                                 they are strategically timed, alert taxpayers of delays and provide
                                                                 taxpayers with an accurate status and time period for case resolution,
                                                                 provide taxpayers with sufficient information to deter them from using
                                                                 other channels to contact the IRS regarding their case, and are clear
                                                                 and concise.

2011-20-111     Security of the IRS     September                Continued Centralization of the Windows Environment Would
                                          2011                   Improve Administration and Security Efficiencies

                                                     05/01/13    F-2, R-1, P-1. Ensure that standards and processes are developed
                                                                 and implemented enterprise-wide to prevent servers and workstations
                                                                 from being connected to the network without the proper authorization
                                                                 and required compliance documentation.

2011-30-112        Taxpayer             September                Reducing the Processing Time Between Balance Due Notices
               Compliance Initiatives     2011                   Could Increase Collections

                                                     07/15/13    F-1, R-1, P-1. Consider reducing the time between each notice by
                                                                 seven days.
                                                     07/15/13    F-2, R-1, P-1. Consider establishing a business rule to address
                                                                 taxpayers with multiple balance due modules entering the notice
                                                                 stream at the same time.
2012-40-010      Tax Compliance         December                 More Tax Return Preparers Are Filing Electronically, but Better
                    Initiatives           2011                   Controls Are Needed to Ensure All Are Complying With the New
                                                                 Preparer Regulations
                                                     07/15/13
                                                                 F-1, R-1, P-1. Monitor preparers’ compliance with the e-file mandate.




 62           October 1, 2012 – March 31, 2013
                          TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                   Projected               Report Title and Recommendation Summary
              IRS Management
Reference                                          Completion               (F = Finding No., R = Recommendation No.,
               Challenge Area
 Number                                Issued        Date                                    P = Plan No.)
2012-30-011     Tax Compliance         January                  Opportunities Exist to Identify More Taxpayer Who Underreport
                   Initiatives          2012                    Retirement Income

                                                    12/15/13    F-1, R-4, P-2, P-3. Convert the Simplified Method Worksheet to a tax
                                                                form and require taxpayers to file it with their tax returns.

2012-30-030     Tax Compliance        March 2012                Actions Can Be Taken to Reinforce the Importance of
                   Initiatives                                  Recognizing and Investigating Fraud Indicators During Field
                                                                Audits

                                                    04/15/13    F-1, R-2, P-1. Reinforce the importance of involving a Fraud Technical
                                                                Advisor in audits when there are indicators of fraud.

2012-40-050   Taxpayer Protection     May 2012                  Most Taxpayers Whose Identities Have Been Stolen to Commit
                  and Rights                                    Refund Fraud Do Not Receive Quality Customer Service

                                                    09/15/13    F-1, R-2, P-1. Implement a process to ensure that while an identity
                                                                theft case is being resolved, IRS notices and correspondence are not
                                                                sent to the address listed on the identity thief’s tax return.
                                                    09/15/13    F-1, R-4, P-1. Ensure that taxpayers are notified when the IRS has
                                                                received their identifying documents and/or it has opened their identity
                                                                theft cases.
                                                    07/15/13    F-1, R-6, P-1. Ensure that all quality review systems used by IRS
                                                                functions and offices working identity theft cases are revised to select a
                                                                representative sample of identity theft cases for quality review.
2012-13-070   Implementing Major      June 2012                 Affordable Care Act: While Much Has Been Accomplished, the
               Tax Law Changes                                  Extent of Additional Controls Needed to Implement Tax-Exempt
                                                                Hospital Provisions Is Uncertain

                                                    04/15/13    F-1, R-1, P-1. Establish a Memorandum of Understanding with the
                                                                Department of Health and Human Services that takes into
                                                                consideration when information for the annual report to Congress
                                                                should be received and the proper format of the data to ensure it will be
                                                                timely and usable for the report to Congress.
2012-40-071   Security for Taxpayer   June 2012                 Insufficient e-Services Controls May Put Taxpayer Information at
              Data and Employees                                Risk

                                                    10/15/13    F-1, R-2, P-1. Develop a confirmation program to verify that tax
                                                                professionals are obtaining and retaining a signed power of attorney
                                                                before submitting one through Disclosure Authorization.
                                                    10/15/13    F-1, R-3, P-1. Reassess the policy for granting Disclosure
                                                                Authorization access to tax professionals, especially unenrolled tax
                                                                return preparers and registered tax return preparers.
                                                    05/15/13    F-2, R-1, P-1. Ensure that IRS employees do not have unauthorized
                                                                access to e-Services’ online tools by periodically matching IRS
                                                                personnel information to a listing of e-Services users.

2012-10-076    Achieving Program      July 2012                 The Full Costs of Work Performed on Reimbursable Agreements
              Efficiencies and Cost                             Are Not Always Charged, Resulting in Reduced Funds Available
                     Savings                                    for Tax Administration
                                                    06/15/13
                                                                F-1, R-1, P-1. Ensure that all active reimbursable agreements are
                                                                based on the full costs estimated for the services provided.




                                                                  October 1, 2012 – March 31, 2013                           63
              TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                   Projected               Report Title and Recommendation Summary
                IRS Management
Reference                                          Completion              (F = Finding No., R = Recommendation No.,
                Challenge Area
 Number                                 Issued       Date                                   P = Plan No.)
2012-42-080     Fraudulent Claims      July 2012                There Are Billions of Dollars in Undetected Tax Refund Fraud
                  and Improper                                  Resulting From Identity Theft
                    Payments
                                                    10/15/13    F-2, R-1, P-1. Develop a process to detect false Social Security benefit
                                                                income and withholding claims at the time tax returns are processed
                                                                using Form SSA-1099 information received from the Social Security
                                                                Administration.
                                                    10/15/13    F-3, R-1, P-1. Coordinate with responsible Federal agencies and
                                                                banking institutions to develop a process to ensure that tax refunds
                                                                issued via direct deposit to either a bank account or a debit card
                                                                account are made only to an account in the taxpayer’s name.
                                                    10/15/13    F-3, R-2, P-1. Limit the number of tax refunds issued via direct deposit
                                                                to the same bank account or debit card account in an attempt to
                                                                reduce the potential for fraud.
                                                    10/15/13    F-3, R-4, P-1. Work with the Department of the Treasury to ensure
                                                                that financial institutions and debit card administration companies
                                                                authenticate the identity of individuals purchasing a debit card. Also,
                                                                prevent the direct deposit of tax refunds to debit cards issued or
                                                                administered by financial institutions and debit card administration
                                                                companies that do not take reasonable steps to authenticate
                                                                individuals’ identities.
2012-10-100     Achieving Program       August                  Significant Additional Real Estate Cost Savings Can Be Achieved
               Efficiencies and Cost     2012                   by Implementing a Telework Workstation Sharing Strategy
                      Savings
                                                                F-1, R-3, P-1. Develop an overall strategy which links workstation
                                                    09/30/13    sharing with the IRS’s planning for future space needs.


2012-30-094      Tax Compliance        September                A Concerted Effort Should Be Taken to Improve Federal
                    Initiatives          2012                   Government Agency Tax Compliance

                                                    10/15/13    F-1, R-4, P-1. Ensure that Federal Agency Delinquency (FAD)
                                                                Program employees adhere to procedures when processing
                                                                delinquent Federal agency cases.
                                                    09/15/13    F-1, R-5, P-1. Establish timeliness standards for FAD Program
                                                                employees to follow when processing Federal agency delinquency
                                                                cases.

2012-30-097      Tax Compliance        September                Actions Are Needed to Ensure Audit Results Post Timely and
                    Initiatives          2012                   Accurately to Taxpayer Accounts

                                                    08/15/13    F-1, R-1, P-2. Develop and implement additional procedures to ensure
                                                                that all audits entering the Campus Case Processing operation with
                                                                short statute expiration dates and large dollar assessment amounts are
                                                                timely and accurately assigned and processed in accordance with
                                                                applicable procedures.
                                                    12/15/13    F-1, R-2, P-1. Conduct a cost-benefit analysis to determine whether it
                                                                would be beneficial to develop and implement systematic controls to
                                                                ensure that the required quick assessments are performed on large
                                                                dollar audits.
2012-11-101     Fraudulent Claims      September                Deficiencies Continue to Exist in Verifying Contractor Labor
                  and Improper           2012                   Charges Prior to Payment
                    Payments
                                                    07/15/14    F-1, R-2, P-1. Ensure the validity of all labor charges for the
                                                                procurement in which TIGTA identified as having a total of $394,430 in
                                                                unsupported labor charges. Actions should be initiated to recover any
                                                                funds identified as being paid erroneously.




 64           October 1, 2012 – March 31, 2013
                          TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                  Projected               Report Title and Recommendation Summary
              IRS Management
Reference                                         Completion              (F = Finding No., R = Recommendation No.,
               Challenge Area
 Number                                Issued       Date                                   P = Plan No.)
2012-20-112   Security for Taxpayer   September                An Enterprise Approach Is Needed to Address the Security Risk
              Data and Employees        2012                   of Unpatched Computers

                                                   04/01/13    F-1, R-2, P-1. Take an enterprise-wide approach to buying tools to
                                                               avoid redundancy and excessive cost, and develop an approach for
                                                               using the data collected by the enterprise tools to support the patch
                                                               management program.
                                                   07/01/13    F-2, R-1, P-1. Update patch management policy to provide clear
                                                               expectations for when patches must be installed based on criticality.
                                                   07/01/13    F-2, R-3, P-1. Establish patch performance metrics in terms of setting
                                                               compliance rate goals and measure them on a monthly basis.
                                                   07/01/13    F-2, R-4, P-1. Implement enterprise-level responsibility to set and
                                                               enforce IRS patch management policy to include deployment of
                                                               enterprise patch management tools that automate patch installation
                                                               and monitoring for like operating systems and software.
                                                   09/01/13    F-2, R-5, P-1. Correct the issues with Altiris patch management tool
                                                               reporting capabilities.
                                                   07/01/13    F-3, R-1, P-1. Complete implementation of controls to ensure that
                                                               unsupported operating systems are not putting the IRS at risk.




                                                                 October 1, 2012 – March 31, 2013                         65
            TIGTA SEMIANNUAL REPORT TO CONGRESS


                             Other Statistical Reports
                 The Inspector General Act of 1978 requires Inspectors General

                                  to address the following issues:

                         Issue                                          Result for TIGTA


Access to Information
Report unreasonable refusals of information            As of March 31, 2013, there were no
available to the agency that relate to programs and    instances where information or assistance
operations for which the Inspector General has         requested by the Office of Audit was refused.
responsibilities.

Disputed Audit Recommendations
                                                       As of March 31, 2013, there were no instances
Provide information on significant management          where significant recommendations were
decisions in response to audit recommendations with    disputed.
which the Inspector General disagrees.

Revised Management Decisions
Provide a description and explanation of the           As of March 31, 2013, no significant
reasons for any significant revised management         management decisions were revised.
decisions made during the reporting period.

Audit Reports Issued in the Prior Reporting
Period With No Management Response
                                                       As of March 31, 2013, there were no prior
Provide a summary of each audit report issued          reports where management’s response was
before the beginning of the current reporting period   not received.
for which no management response has been
received by the end of the current reporting period.

Review of Legislation and Regulations
                                                       TIGTA’s Office of Chief Counsel reviewed
Review existing and proposed legislation and           116 proposed regulations and legislative
regulations, and make recommendations concerning       requests during this reporting period.
the impact of such legislation or regulations.




66         October 1, 2012 – March 31, 2013
                    TIGTA SEMIANNUAL REPORT TO CONGRESS



                                     Appendix II

                       Audit Products
               October 1, 2012 - March 31, 2013
                                      Audit Products
 Reference
  Number                                           Report Title
              October 2012
              N/A
              November 2012
              New Employees Are Being Hired More Quickly; However, Improvements Are Needed
2013-10-007   to Correct Some Hiring Monitoring Data (Reliability of Information: nine inaccurate job
              announcement records in the hiring database)
              December 2012
              Further Efforts Are Needed to Ensure That the Internal Revenue Service Prisoner File
2013-40-011
              Is Accurate and Complete
              Many Taxpayers Are Still Not Complying With Noncash Charitable Contribution
2013-40-009   Reporting Requirements (Revenue Protection: $1,111,651,728 and 311,258 taxpayer
              accounts impacted; Reliability of Information: $87,966,530,511)
              January 2013
              Independent Audit of the Contractor’s Fiscal Year Ended June 30, 2006, Incurred Cost
2013-1C-002
              Proposal
2013-1C-003   Adequacy of Contractor’s Initial Disclosure Statement and Revision 1
              Inadequate Aircard and Blackberry® Smartphone Assignment and Monitoring
2013-10-010   Processes Result in Millions of Dollars in Unnecessary Access Fees (Funds Put to
              Better Use: $5,933,485)
              Improvements Have Been Made to Address Human Capital Issues, but Continued
2013-10-017
              Focus Is Needed
              Potentially Dangerous Taxpayer and Caution Upon Contact Cases Are Adequately
2013-40-014
              Controlled, but Improvements in Training and Outreach Are Needed
2013-1C-004   Incurred Cost Proposal for Fiscal Year Ended June 30, 2007
2013-1C-005   Fiscal Year 2010 Floor Check Audit
              Actions to Correct Deficiencies Related to Compliance With Defense Federal
2013-1C-006
              Acquisition Regulation Supplement Part 252, Accounting System Administration
              Significant Delays Hindered Efforts to Provide Continuous Monitoring of Security
2013-20-016
              Settings on Computer Workstations (Inefficient Use of Resources: $1,151,939)
              Independent Attestation Review of the Internal Revenue Service’s Fiscal Year 2012
2013-10-019
              Annual Accounting of Drug Control Funds and Related Performance
              Fraud and Abuse Are Addressed in the Indian Tribal Sector, but Performance
2013-10-018
              Objectives and Measures Are Needed to Assess Program Effectiveness
              Improper Payments Elimination and Recovery Act Risk Assessments of Revenue
2013-40-015
              Programs Are Unreliable
              February 2013
2013-1C-008   Application of Agreed-Upon Procedures
                                                           October 1, 2012 – March 31, 2013             67
          TIGTA SEMIANNUAL REPORT TO CONGRESS

               Taxpayer Referrals of Suspected Tax Fraud Result in Tax Assessments, but
2013-40-022
               Processing of the Referrals Could Be Improved
               The Compliance Assurance Process Has Received Favorable Feedback, but
2013-30-021
               Additional Analysis of Its Costs and Benefits Is Needed
               The Internal Revenue Service Was Not in Compliance With All Requirements of the
2013-40-024
               Improper Payments Elimination and Recovery Act for Fiscal Year 2012
               Improvements Are Needed to Ensure the Effectiveness of the Privacy Impact
2013-20-023
               Assessment Process
               March 2013
               Actions Can Be Taken to Reinforce the Importance of Recognizing and Investigating
2013-30-020
               Fraud Indicators During Office Audits (Increased Revenue: $29,000,000)
               Independent Audit of the Contractor’s Civil Information Technology Fiscal Year Ended
2013-1C-001
               March 31, 2006, Final Incurred Cost Proposal (Questioned Costs: $327,845)
               Assessment of the Internal Revenue Service’s Interpretation of Section 1302 of the
2013-40-029
               Recovery Act: Qualifying Advanced Energy Project Credit
               Processing of Foreign Currency Check Payments Is Causing Unnecessary Taxpayer
               Burden (Taxpayer Burden: $315,245; 3,905 foreign currency payments converted at a
2013-30-027
               lower exchange rate; and 870 foreign currency payments not processed timely or
               correctly)
               Supplemental Independent Audit of the Contractor’s Civil Information Technology Final
2013-1C-026
               Incurred Cost Proposal for Fiscal Year Ending March 31, 2006
               Improvements Are Needed to Ensure That Performance Measures Are Balanced and
2013-30-028
               Adequately Assess the Effectiveness of the Collection Program
               Integrated Financial System Updates Are Improving System Security, but Remaining
2013-20-030
               Weaknesses Should Be Addressed
2013-43-033    Affordable Care Act: Implementation of Key Information Reporting Provisions
               Affordable Care Act – The Income and Family Size Verification Project: Improvements
2013-23-034
               Could Strengthen the Internal Revenue Service’s New Systems Development Process
2013-40-035    Interim Results of the 2013 Filing Season




68       October 1, 2012 – March 31, 2013
                          TIGTA SEMIANNUAL REPORT TO CONGRESS



                                          Appendix III

       TIGTA’s Statutory Reporting Requirements
TIGTA issued four audit reports required by statute dealing with the adequacy and
security of IRS technology during this reporting period. In FY 2013, TIGTA will complete
its 15th round of statutory reviews that are required annually by the IRS Restructuring and
Reform Act of 1998 (RRA 98). It will also complete its annual reviews of the Federal
Financial Management Improvement Act of 1996 (FFMIA), the Office of National Drug
Control Policy (ONDCP) Detailed Accounting Submission and Assertions, and the
Improper Payments Elimination and Recovery Act of 2010 (IPERA). The following table
reflects TIGTA’s FY 2013 statutory reviews.



       Reference to                    Explanation of the                     Comments/TIGTA Audit
    Statutory Coverage                     Provision                                Status

   Enforcement Statistics           Requires TIGTA to evaluate the         In fieldwork phase.
                                    IRS’s compliance with
   Internal Revenue Code (I.R.C.)   restrictions under RRA 98 §
   § 7803(d)(1)(A)(i)               1204 on the use of enforcement
                                    statistics to evaluate IRS
                                    employees.




   Restrictions on Directly         Requires TIGTA to evaluate the         In fieldwork phase.
   Contacting Taxpayers             IRS’s compliance with restrictions
                                    under I.R.C. § 7521 on directly
   I.R.C. § 7803(d)(1)(A)(ii)       contacting taxpayers who have
                                    indicated that they prefer their
                                    representatives be contacted.



   Filing of a Notice of Lien       Requires TIGTA to evaluate the         In report writing phase.
                                    IRS’s compliance with required
   I.R.C. § 7803(d)(1)(A)(iii)      procedures under I.R.C. § 6320
                                    upon the filing of a notice of lien.




                                                                       October 1, 2012 – March 31, 2013   69
              TIGTA SEMIANNUAL REPORT TO CONGRESS


         Reference to                     Explanation of the                      Comments/TIGTA Audit
      Statutory Coverage                      Provision                                 Status

     Extensions of the Statute of      Requires TIGTA to include               In fieldwork phase.
     Limitations for Assessment        information regarding extensions
     of Tax                            of the statute of limitations for
                                       assessment of tax under
     I.R.C. § 7803(d)(1)(C)            I.R.C. § 6501 and the provision
                                       of notice to taxpayers regarding
     I.R.C. § 6501(c)(4)(B)            the right to refuse or limit the
                                       extension to particular issues or
                                       a particular period of time.



     Levies                            Requires TIGTA to evaluate the          In fieldwork phase.
                                       IRS’s compliance with required
     I.R.C. § 7803(d)(1)(A)(iv)        procedures under I.R.C. § 6330
                                       regarding levies.



     Collection Due Process            Requires TIGTA to evaluate the          In fieldwork phase.
                                       IRS’s compliance with required
     I.R.C. § 7803(d)(1)(A)(iii) and   procedures under I.R.C. §§ 6320
     (iv)                              and 6330 regarding taxpayers’
                                       rights to appeal lien or levy
                                       actions.



     Seizures                          Requires TIGTA to evaluate the          In report writing phase.
                                       IRS’s compliance with required
     I.R.C. § 7803(d)(1)(A)(iv)        procedures under I.R.C. §§ 6330
                                       through 6344 when conducting
                                       seizures.



     Taxpayer Designations –           An evaluation of the IRS’s              In fieldwork phase.
     Illegal Tax Protester             compliance with restrictions
     Designation and Nonfiler          under RRA 98 § 3707 on
     Designation                       designation of taxpayers.

     I.R.C. § 7803(d)(1)(A)(v)



     Disclosure of Collection          Requires TIGTA to review and            Planned but not started.
     Activities With Respect to        certify whether the IRS is
     Joint Returns                     complying with I.R.C.
                                       § 6103(e)(8) to disclose
     I.R.C. § 7803(d)(1)(B)            information to an individual filing a
                                       joint return on collection activity
     I.R.C. § 6103(e)(8)               involving the other individual filing
                                       the return.




70            October 1, 2012 – March 31, 2013
                     TIGTA SEMIANNUAL REPORT TO CONGRESS


    Reference to                   Explanation of the                     Comments/TIGTA Audit
 Statutory Coverage                    Provision                                Status

Taxpayer Complaints             Requires TIGTA to include in each      Statistical results on the number of
                                of its Semiannual Reports to           taxpayer complaints received are shown
I.R.C. § 7803(d)(2)(A)          Congress the number of taxpayer        on page 57.
                                complaints received and the
                                number of employee misconduct
                                and taxpayer abuse allegations
                                received by the IRS or TIGTA
                                from taxpayers, IRS employees
                                and other sources.




Administrative or Civil         Requires TIGTA to include              In fieldwork phase.
Actions With Respect to the     information regarding any
Fair Tax Collection Practices   administrative or civil actions with
Act of 1996                     respect to violations of the fair
                                debt collection provision of I.R.C.
I.R.C. § 7803(d)(1)(G)          § 6304, including a summary of
                                such actions, and any resulting
I.R.C. § 6304                   judgments or awards granted.

RRA 98 § 3466



Denial of Requests for          Requires TIGTA to include              In fieldwork phase.
Information                     information regarding improper
                                denial of requests for information
I.R.C. § 7803(d)(1)(F)          from the IRS, based on a
                                statistically valid sample of the
I.R.C. § 7803(d)(3)(A)          total number of determinations
                                made by the IRS to deny written
                                requests to disclose information to
                                taxpayers on the basis of I.R.C.
                                § 6103 or 5 U.S.C. § 552(b)(7).




Adequacy and Security of the    Requires TIGTA to evaluate the         Information Technology Reviews:
Technology of the IRS           IRS’s adequacy and security of its     Ref. No. 2013-20-030, March 2013
                                technology.                            Ref. No. 2013-23-034, March 2013
I.R.C. § 7803(d)(1)(D)
                                                                       Security Reviews:
                                                                       Ref. No. 2013-20-016, January 2013
                                                                       Ref. No. 2013-20-023, February 2013




                                                                   October 1, 2012 – March 31, 2013             71
              TIGTA SEMIANNUAL REPORT TO CONGRESS


         Reference to                      Explanation of the                   Comments/TIGTA Audit
      Statutory Coverage                       Provision                              Status

     Federal Financial                  Requires TIGTA to evaluate the       In fieldwork phase.
     Management Improvement             financial management systems to
     Act of 1996 (FFMIA)                ensure compliance with Federal
                                        requirements or the establishment
     31 U.S.C. § 3512                   of a remediation plan with
                                        resources, remedies, and
                                        intermediate target dates to bring
                                        the IRS into substantial
                                        compliance.


     Office of National Drug            Requires TIGTA to authenticate       Ref. No. 2013-10-019, January 2013
     Control Policy (ONDCP)             the IRS’s ONDCP detailed             Nothing came to TIGTA’s attention that
     Detailed Accounting                accounting submission and            caused TIGTA to believe that the
     Submission and Assertions          assertions.                          assertions in the Detailed Accounting
                                                                             Submission and Performance Summary
     National Drug Enforcement                                               Report were not fairly presented in all
     Policy 21 U.S.C. § 1704(d) and                                          material respects in accordance with
     the Office of National Drug                                             ONDCP-established criteria.
     Control Policy Circular entitled
     Drug ControlAccounting, dated
     May 1, 2007.




72           October 1, 2012 – March 31, 2013
                    TIGTA SEMIANNUAL REPORT TO CONGRESS



                                    Appendix IV

                         Section 1203 Standards
In general, the Commissioner of Internal Revenue shall terminate any IRS employee if there is a
final administrative or judicial determination that, in the performance of official duties, such
employee committed any misconduct violations outlined below. Such termination shall be a
removal for cause on charges of misconduct.

Misconduct violations include:

      Willfully failing to obtain the required approval signatures on documents authorizing the
       seizure of a taxpayer’s home, personal belongings, or business assets;
      Providing a false statement under oath with respect to a material matter involving a
       taxpayer or taxpayer representative;
      Violating, with respect to a taxpayer, taxpayer representative, or other employee of the
       IRS, any right under the Constitution of the United States, or any civil right established
       under Title VI or VII of the Civil Rights Act of 1964; Title IX of the Education Amendments
       of 1972; Age Discrimination in Employment Act of 1967; Age Discrimination Act of 1975;
       Section 501 or 504 of the Rehabilitation Act of 1973; or Title I of the Americans with
       Disabilities Act of 1990;
      Falsifying or destroying documents to conceal mistakes made by any employee with
       respect to a matter involving a taxpayer or taxpayer representative;
      Committing assault or battery on a taxpayer, taxpayer representative, or other employee of
       the IRS, but only if there is a criminal conviction or a final judgment by a court in a civil
       case, with respect to the assault or battery;
      Violating the Internal Revenue Code of 1986, as amended (the Code), the Department of
       the Treasury regulations, or policies of the IRS (including the Internal Revenue Manual) for
       the purpose of retaliating against or harassing a taxpayer, taxpayer representative, or
       other employee of the IRS;
      Willfully misusing provisions of § 6103 of the Code for the purpose of concealing
       information from a congressional inquiry;
      Willfully failing to file any return of tax required under the Code on or before the date
       prescribed therefore (including any extensions), unless such failure is due to reasonable
       cause and not to willful neglect;
      Willfully understating Federal tax liability, unless such understatement is due to reasonable
       cause and not to willful neglect; and
      Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her sole
discretion, may establish a procedure that will be used to decide whether an individual should be
referred to the Commissioner for determination. Any mitigation determination by the
Commissioner in these matters may not be appealed in any administrative or judicial proceeding.


                                                         October 1, 2012 – March 31, 2013        73
     TIGTA SEMIANNUAL REPORT TO CONGRESS




                                        Divider

                                Appendix V

74   October 1, 2012 – March 31, 2013
                  TIGTA SEMIANNUAL REPORT TO CONGRESS



                                Appendix V

            Implementing Section 989C of the
           Dodd-Frank Wall Street Reform and
                Consumer Protection Act
         Inspector General Peer Review Activity
         October 1, 2012 Through March 31, 2013

Last Peer Review Conducted on TIGTA Office of Investigations

No peer reviews have been conducted during this six-month reporting period.




                                                  October 1, 2012 – March 31, 2013   75
     TIGTA SEMIANNUAL REPORT TO CONGRESS




                               Divider Page




76   October 1, 2012 – March 31, 2013
                        TIGTA SEMIANNUAL REPORT TO CONGRESS



                                     Appendix VI
                     Data Tables Provided by the IRS

The memorandum copied below is the IRS’s transmittal to TIGTA. The tables that follow the
memorandum contain information that the IRS provided to TIGTA and consist of IRS employee
misconduct reports from the IRS Automated Labor and Employee Relations Tracking System
(ALERTS) for the period from October 1, 2012 through March 31, 2013. Also, data concerning
substantiated RRA 98 §1203 allegations for the same period are included. IRS management
conducted inquiries into the cases reflected in these tables.




                                                       October 1, 2012 – March 31, 2013   77
             TIGTA SEMIANNUAL REPORT TO CONGRESS


     Reports of Employee Misconduct for the Period
        October 1, 2012 through March 31, 2013
            Summary by Disposition Groups
              (Tables Provided by the IRS)
        Disposition                                            Employee
                             TIGTA Report                                      Employee
                                             Administrative      Tax
                                  of                                           Character       Total
                                                Case          Compliance
                             Investigation                                   Investigation
                                                                 Case
Removal (Probation
                                  25               42              7                0            74
Period Complete)
Probation/Separation              1                36              0                2            40
Separation of Temporary
                                  0                10              0                1            11
Employees
Resign., Ret., Etc. (SF 50
                                  4                11              5                1            21
Noted)
Resign., Ret., Etc. (SF 50
                                  29               81              25               4           139
Not Noted)
Susp., 14 Days or Less            54              140              79               1           274

Susp., More Than 14 Days          27               38              21               1            87

Indefinite Suspension             2                3               0                0             5
Reprimand                         54              218             151              14           437
Admonishment                      55              141             271              22           489
Written Counseling                40              224             136               0           400
Oral Counseling                   0                75              13               0            88
A D: In Lieu of Reprimand         7                36              10               0            53
A D: In Lieu of Suspension        17               46              27               1            91
Clearance Letter                  78               91              3                0           172
CWA Cautionary LTR                165             163             102              80           510
CWA LTR                           61              101              25              21           208
Termination for
                                  0                11              0                0            11
Abandonment of Position
Case Suspended Pending
                                  0                0               0                0             0
Employee RTD
Closed – Supplemental
                                  0                0               0                0             0
Requested
Forwarded to TIGTA                 0              31               0               0             33
Total                             619            1498             878             148           3143


Source: Automated Labor and Employee Relations Tracking System (ALERTS)

Note: Columns containing numbers of two or fewer and protected by I.R.C. Section 6103 are annotated
with a 0.

This report is being produced in accordance with 26 U.S.C. 7803(d)(2) and §4(a)2 of Treasury Delegation
Order 115-01, January 14, 1999.                                 Extract Date: Wednesday, April 3, 2013
78          October 1, 2012 – March 31, 2013
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


     Reports of Employee Misconduct for the
 Period October 1, 2012 through March 31, 2013
                 National Summary
           (Tables Provided by the IRS)
                                                               Cases Closed
                                    Conduct
   Inventory          Opening                                     Cases                        Ending
                                     Cases                                         Non-
   Case Type         Inventory                     Conduct        Merged                      Inventory
                                    Received                                     Conduct
                                                    Issues       With Other
                                                                                  Issues
                                                                  Cases

 Administrative
                         768             1990         1946            44             14           754
 Case

 Employee
 Character               61              226           190             4             0             93
 Investigation

 Employee Tax
 Compliance              531             1660         1439           218             0            534
 Case

 TIGTA Report
                         520             744           737            15             0            512
 of Investigation

 Total                  1880             4620         4312           281             14          1893


Source: Automated Labor and Employee Relations Tracking System (ALERTS)

TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an investigation
into alleged misconduct and referred a Report of Investigation (ROI) to IRS for appropriate action.

Administrative Case - Any matter involving an employee in which management conducted an inquiry into
alleged misconduct.

Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance
program which becomes a matter of official interest.

Background Investigations - Any matter involving an National Background Information Center investigation
into an employee's background that is referred to management for appropriate action.

This report is being produced in accordance with 26 USC 7803(d)(2) and §4(a)2 of Treasury Delegation
Order 115-01, January 14, 1999.

Extract Date: Wednesday, April 3, 2013



                                                              October 1, 2012 – March 31, 2013             79
            TIGTA SEMIANNUAL REPORT TO CONGRESS


                   Summary of Substantiated
                I.R.C. Section 1203 Allegations
             Recorded in ALERTS for the Periods
            October 1, 2012 through March 31, 2013
                  (Tables Provided by the IRS)
                                                              Removed                            In
      § 1203                     Resigned/     Probation                     Penalty
                   Removals                                   On Other                       Personnel   Total
     Violation                    Retired      Separation                    Mitigated
                                                              Grounds                         Process

 § 1203(b)(10)
   Threat of            0             0             0              0             0              0          0
 Audit/Personal
 § 1203(b)(1)
 Willfull Unauth        0             0             0              0             0              0          0
    Seiz TP
  § 1203(b)(2)
False Statement         0             0             0              0             0              0          0
  Under Oath
  § 1203(b)(4)
Concealed Work          1             0             0              0             0              0          1
      Error
  § 1203(b)(5)
   Assault or           0             0             0              0             0              0          0
     Battery
  § 1203(b)(6)
 IRC/IRM/Reg            0             0             0              0             0              0          0
   Viol-Retal
  § 1203(b)(8)
Willful Untimely        3             4             0              0            12              21        41
     Return
  § 1203(b)(9)
     Willful            3             0             0              0             6              15        25
Understated Tax
      Total             7             5             0              1            18              36        67

Source: Automated Labor and Employee Relations Tracking System (ALERTS) and 1203 Review
Board records.

The cases reported as "Removals" and "Penalty Mitigated" do not reflect the results of any
third party appeal.

Columns containing numbers of two or fewer and protected by I.R.C. Section 6103 are annotated with a 0.
Extract Date: Wednesday, April 3, 2013



80         October 1, 2012 – March 31, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS



          Glossary of Acronyms
ACA          Affordable Care Act

ACTC         Additional Child Tax Credit

ALERTS       Automated Labor and Employee Relations Tracking System

CAP          Compliance Assurance Process

CY           Calendar Year

EITC         Earned Income Tax Credit

FACTA        Foreign Account Tax Compliance Act

FAD          Federal Agency Delinquency

FEVS         Federal Employee Viewpoint Survey
FFMIA        Federal Financial Management Improvement Act of 1996

FTE          Full-Time Equivalent

FY           Fiscal Year

I&E          Inspections and Evaluations

I.R.C.       Internal Revenue Code

IFSV         Income and Family Size Verification

IG Act       Inspector General Act of 1978

IPERA        Improper Payment Elimination and Recovery Act of 2010

IRS          Internal Revenue Service

LB&I         Large Business and International

NTEU         National Treasury Employees Union

OA           Office of Audit

OI           Office of Investigations


                                           October 1, 2012 – March 31, 2013   81
             TIGTA SEMIANNUAL REPORT TO CONGRESS



     OMB                     Office of Management and Budget

     ONDCP                   Office of National Drug Control Policy
     OPM                     Office of Personnel Management
     PIA                     Privacy Impact Assessment
     PIAMS                   Privacy Impact Assessment Management System
     PII                     Personally Identifiable Information
     PMP                     Performance Management Program
     PTIN                    Preparer Tax Identification Number

     ROI                     Report of Investigation

     RRA 98                  IRS Restructuring and Reform Act of 1998
     SB/SE                   Small Business/Self-Employed
     SSA                     Social Security Administration
     SSN                     Social Security Number
     TIGTA                   Treasury Inspector General for Tax Administration
     TY                      Tax Year
     U.S.                    United States
     W&I                     Wage & Investment




82           October 1, 2012 – March 31, 2013
TIGTA SEMIANNUAL REPORT TO CONGRESS




                            October 1, 2012 – March 31, 2013   83
     TIGTA SEMIANNUAL REPORT TO CONGRESS




84   October 1, 2012 – March 31, 2013
TIGTA SEMIANNUAL REPORT TO CONGRESS




                            October 1, 2012 – March 31, 2013   85
